<html>
<title> - THE FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                           THE FEDERAL AVIATION 
                     ADMINISTRATION REAUTHORIZATION 
                              ACT OF 2009 

=======================================================================

                                (111-8)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           FEBRUARY 11, 2009

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure




















    THE FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION ACT OF 2009























                          THE FEDERAL AVIATION
                     ADMINISTRATION REAUTHORIZATION
                              ACT OF 2009

=======================================================================

                                (111-8)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-411 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio               BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
ELLEN O. TAUSCHER, California
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)


















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Bolen, Ed, President and CEO, National Business Aviation 
  Association....................................................    32
Brantley, Tom, President, Professional Aviation Safety 
  Specialists, AFL-CIO...........................................    56
Cohen, Roger, President, Regional Airline Association............    32
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     7
Elwood, James P., A.A.E., Airport Director, Aspen/Pitkin County 
  Airport........................................................    32
Forrey, Patrick, President, National Air Traffic Controllers 
  Association....................................................    56
Friend, Patricia, International President, Association of Flight 
  Attendants, CWA................................................    56
Fuller, Craig, President, Aircraft Owners and Pilots Association.    32
Gless, Robert, Assistant Director, Air Transport Division, 
  Transport Workers' Association of America, AFL-CIO.............    56
Hanni, Kate, President, Flyersrights.org.........................    56
Jones, Clayton M., Chairman, President and CEO, Rockwell Collins.    32
LoBue, Hon. Nancy, Acting Assistant Administrator, Aviation 
  Policy, Planning and Environment, Federal Aviation 
  Administration.................................................     7
May, James C., President and CEO, Air Transport Association......    32
Prater, Captain John, President, Air Line Pilots Association, 
  International..................................................    56
Principato, Gregory, President, Airports Council International-
  North America..................................................    32
Roach, Jr., Robert, General Vice President, International 
  Association of Machinists and Aerospace Workers................    56
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     7
Thompson, Hon. Mike, a Representative in Congress from the State 
  of California..................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    74
Carnahan, Hon. Russ, of Missouri.................................    77
Cohen, Hon. Steve, of Tennessee..................................    78
Costello, Hon. Jerry F., of Illinois.............................    80
Johnson, Hon. Eddie Bernice, of Texas............................    90
Mica, Hon. John L., of Florida...................................    94
Mitchell, Hon. Harry E., of Arizona..............................   102
Oberstar, Hon. James L., of Minnesota............................   103
Petri, Hon. Thomas E., of Wisconsin..............................   108
Rahall, Hon. Nick J., of West Virginia...........................   115
Thompson, Hon. Mike, of California...............................   121

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bolen, Ed........................................................   123
Brantley, Tom....................................................   130
Cohen, Roger.....................................................   142
Dillingham, Dr. Gerald...........................................   147
Elwood, James P..................................................   180
Forrey, Patrick..................................................   197
Friend, Patricia.................................................   209
Fuller, Craig....................................................   236
Gless, Robert....................................................   243
Hanni, Kate......................................................   250
Jones, Clayton M.................................................   265
LoBue, Hon. Nancy, delivered by Lynne Osmus, Acting 
  Administrator, Federal Aviation Administration.................   271
May, James C.....................................................   293
Prater, Captain John.............................................   311
Principato, Gregory..............................................   325
Roach, Jr., Robert...............................................   345
Scovel, III, Hon. Calvin L.......................................   353

                       SUBMISSIONS FOR THE RECORD

Schauer, Hon. Mark H., a Representative in Congress from the 
  State of Michigan, letter to Rep. Costello.....................   118
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office, responses to questions 
  from the Subcommittee..........................................   164
LoBue, Hon. Nancy, Acting Assistant Administrator, Aviation 
  Policy, Planning and Environment, Federal Aviation 
  Administration, responses to questions from the Subcommittee...   278
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation, responses to questions from the Subcommittee   386

                        ADDITIONS TO THE RECORD

Letters to the Secretary of Transporation in support of the 
  pending Star alliance application..............................   398
Aeronautical Repair Station Association, Marshall S. Filler, 
  Managing Director and General Counsel, written statement.......   456
Airport Minority Advisory Council:

  Written statement..............................................   462
  Testimony of Anthony W. Brown, Chairman of the Government 
    Affairs Committee, before the Subcommittee on Information 
    Policy, Census, and National Archives of the Committee on 
    Oversight and Government Reform, U.S. House of 
    Representatives, September 24, 2008..........................   473
  Testimony of Don T. O'Bannon, Esq., Chairman, before the 
    Committee on Small Business and Entrepreneurship, U.S. 
    Senate, September 11, 2008...................................   479
  Gene Roth, Executive Director, before the Committee on 
    Transportation and Infrastructure, U.S. House of 
    Representatives, January 22, 2009............................   483
  ``Race, Sex, and Business Enterprise: Evidence from the City of 
    Austin,'' Final Report Prepared for the City of Austin, Texas 
    by the National Economic Research Associates, Inc., May 15, 
    2008.........................................................   488
  Disparity Study for the Commonwealth of Kentucky, Final Draft 
    Report.......................................................   506
  ``The Utilization of Minority Business Enterprises by the State 
    of Maryland,'' Prepared for the State of Maryland Department 
    of Transportation by the National Economic Research 
    Associates, Inc., January 8, 2001............................   533
  ``Race, Sex, and Business Enterprise: Evidence from Memphis, 
    Tennessee, Prepared for the Memphis-Shelby County Airport 
    Authority by the National Economic Research Associates, Inc., 
    December 18, 2008............................................   548
  ``Race, Sex, and Business Enterprise: Evidence from the State 
    of Minnesota,'' Prepared for the Minnesota Department of 
    Transportation by the National Economic Research Associates, 
    Inc. and Colette Holt & Associates, September 27, 2005.......   568
The Boeing Company, Kevin Brown, Vice President, Air Traffic 
  Management, written statement..................................   573
Continental Airlines, Inc., written statement....................   578
Gebhardt & Associates, LLP, Joseph D. Gebhardt, letter to the 
  Subcommittee...................................................   584
Helicopter Association International, Matthew Zuccaro, President, 
  letter to the Subcommittee.....................................   586
National Air Transportation Association, written statement.......   588
The National Association of Counties, written statement..........   594
National Pest Management Association, Gene Harrington, Director, 
  Government Affairs, written statement..........................   597

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             HEARING ON THE FAA REAUTHORIZATION ACT OF 2009

                              ----------                              


                      Wednesday, February 11, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members, staff and everyone in the 
room to turn electronic devices either off or on vibrate.
    The Subcommittee is meeting today to hear testimony on the 
FAA Reauthorization Act of 2009.
    The Chair intends to give an opening statement, to call on 
Mr. Petri to give an opening statement or brief remarks, and 
then we will immediately go to our panel of first witnesses.
    Mr. Mica. I had a little commentary if you would yield.
    Mr. Costello. Mr. Mica has asked if he can make a few 
comments. So I will revise my remarks and say that we will 
recognize him for comments as well.
    Let me advise everyone, we have a total of 18 witnesses 
that we will hear from today. So I would inform our witnesses 
that their statements will be entered into the record, and we 
would ask them to summarize their statements as they are called 
upon.
    I want to welcome everyone to the Subcommittee hearing 
today on the FAA Reauthorization Act of 2009.
    Earlier this week, Chairman Oberstar and I introduced H.R. 
915, the FAA Reauthorization Act of 2009. H.R. 915 is almost 
identical to the H.R. 2881 legislation that was produced after 
many hearings, in-depth analysis and a continued dialogue with 
the FAA, our colleagues and other stakeholders, and then 
passed, of course, the Full Committee and the full House of 
Representatives in September of 2007.
    We have made a few modifications in the new introduced 
bill:
    One, we have deleted provisions in our original bill that 
were already enacted through the legislative or regulatory 
process.
    We included H.R. 5788, the HANG UP Act legislation 
introduced by Mr. DeFazio to prohibit the use of cell phones on 
commercial flight. H.R. 5788 was reported favorably from this 
Committee last September.
    And, we included the Aviation Safety Enhancement Act which 
was passed by the House on July 22, 2008.
    It is our intention to move forward on reauthorizing the 
FAA as quickly as possible, given that we are already two years 
behind schedule because of the inaction by the United States 
Senate. As witnesses will testify this afternoon, short-term 
funding extensions and continuing resolutions are delaying key 
NextGen and airport development capital projects. We need to 
get the FAA authorized as soon as possible in this session of 
Congress.
    The total number of passengers carried in the U.S. airspace 
is approaching 800 million a year, and the FAA forecasts that 
airlines are expected to carry more than 1 billion passengers 
in the next 7 to 12 years.
    To deal with this growth, strengthening our economy and 
create jobs, the FAA Reauthorization Act of 2009 provides 
historic funding levels for the FAA's capital programs. This 
includes $16.2 billion for the Airport Improvement Program, 
nearly $13.4 billion for the FAA Facility and Equipment Account 
and $1.35 billion for research and engineering and development. 
The bill also provides $38.9 billion for the FAA operations 
over the next 4 years.
    The historic funding levels authorized for the FAA's F&E 
account will accelerate the implementation of NextGen, enable 
the FAA to replace and repair existing facilities and equipment 
and provide for the implementation of high priority safety-
related systems.
    To increase the authority and visibility of the FAA's Joint 
Planning and Development Office, H.R. 915 elevates the Director 
of the JPDO to the status of Associate Administrator for 
NextGen within the FAA, to be appointed by and reporting 
directly to the FAA Administrator.
    To increase accountability and coordination of NextGen 
planning and implementation, H.R. 915 requires that JPDO 
develop a work plan that details, on a year to year basis, 
specific NextGen-related deliverables and milestones required 
by the FAA and its partner agencies.
    To help airports meet increasing capital needs, we have 
included an increase of the cap from $4.50 to $7.00 on the PFC 
charges. That is exactly identical to what we did in H.R. 2881. 
So the increase for the PFCs would be $4.50 to $7.00.
    According to the FAA, if every airport currently collecting 
a $4.00 or $4.50 PFC and if you raise that to $7.00, it would 
generate approximately $1.1 billion in additional revenue for 
airport development each year.
    H.R. 915 also provides significant increases for AIP 
funding for smaller airports that rely on AIP for capital 
financing. Further, the bill increases funding for improvements 
in the Essential Air Service Program and authorizes a Small 
Community Air Service Development Program through 2012 at the 
current authorized funding level of $35 million per year.
    The traveling public saw firsthand serious problems that 
our current system has with congestion and delays which, at 
times, led to a breakdown in customer service. We have enacted 
in this legislation a similar Passenger Bill of Rights or 
consumer protection provisions in H.R. 915. In addition to a 
number of things that we provide under that section of the 
legislation, it also provides for civil penalties for 
violations by the airlines.
    We have included in H.R. 915 the CLEEN Engine and Airframe 
Technology Partnership and Green Tower program which was 
modeled after what is currently being done at O'Hare 
International Airport.
    We have the safest air transportation system in the world, 
but we must not become complacent. In order to keep proper 
oversight over the FAA and the safety program, H.R. 915 directs 
the FAA to increase the number of aviation safety inspectors, 
initiate studies on fatigue and requires the FAA to inspect 
Part 145 certificated foreign repair stations at least twice a 
year.
    There are a number of other issues that we have addressed 
in the bill that were the same as in H.R. 2881 including labor 
provisions that affect labor negotiations with NATCA and the 
FAA. The language is identical in this bill as the last bill as 
well as the FedEx provision that was debated and included in 
H.R. 2881.
    Before I conclude my remarks--my statement is more 
detailed, I will submit it for the record in the interest of 
time--let me congratulate the men and women of JetBlue Airways. 
Today is their ninth anniversary of flight, and I want to make 
note of that and congratulate them.
    With that, again, I welcome all of our witnesses here 
today. I look forward to hearing your testimony.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow for two weeks for Members to 
revise and extend their remarks and to permit the submission of 
additional statements and materials by Members and witnesses. 
Without objection, so ordered.
    The Chair now recognizes Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I will put my full statement in the record. I know we have 
a full agenda and would like to get right to the witnesses.
    But let me just say that I regret that we are moving quite 
this quickly here. It is important we get a new reauthorization 
in place, but it is also important that we do it in an orderly 
fashion, and acting before the Administration has a chance to 
submit its bill or its ideas or comments may actually prolong 
the process toward final passage rather than speed it up.
    Our new Administration does take a little while to get in 
order, but I think they are owed a certain amount of deference 
and respect from this Congress, and I regret that we are, in 
effect, acting before we get their input.
    With that, I would yield to the Ranking Minority Member of 
the Full Committee, Mr. Mica.
    Mr. Mica. Thank you.
    Just for the record, I will submit a statement and make 
some brief comments.
    Well, first of all, I want to thank Mr. Costello and Mr. 
Petri for moving forward.
    Chairman Oberstar is helping. He would be here. We just 
left trying to get some money for the Committee through House 
Administration, together. I don't know what we are going to 
get. We may have to eliminate staff and Members, but we should 
do okay other than that.
    Ray LaHood--I know we have all met with the new Secretary--
asked me what some of the priorities are. And I said, we have 
to get an FAA bill, and we have to also get an FAA 
Administrator.
    It is absolutely incomprehensible that we haven't had an 
FAA reauthorization since, what, September of 2007. And now I 
hear the Senate is looking at an extension that might go into 
the fall. That is totally unacceptable. So I pledged with Mr. 
Oberstar to work to pass comprehensive FAA reauthorization 
which should have been done in the last two years.
    Trying to deal with an agency, and I chaired Aviation for 
six years. We did some very good things. It is difficult enough 
when you have an administrator or chief executive at an agency 
in place. It is difficult, if not impossible, when you don't 
have one or you have one acting who is being held hostage for 
political reasons, which is totally unacceptable.
    This bill could and should be conferenced, and we could do 
it in two hours. There is no reason that it shouldn't have been 
done.
    First, we know one of the big elephants in the room is the 
NATCA provisions, and I think we have to be fair to the men and 
women who serve us as air traffic controllers.
    I am glad this is tossed to the new Administration and to 
the new greater majority. I just would counsel them against 
unleashing a dam, and again I think that they are entitled to 
some compensation and additional compensation, particularly new 
entrants. And I did everything I could to bring parties 
together for the last two years to resolve that issue, but that 
has to be resolved. That is the two-ton elephant in the room.
    I have no problem with the provisions for compulsory 
arbitration, and I would hope to the good Lord that we never 
again bring to Congress the personnel and salary issues of any 
of our agencies at that level and then put every Member of 
Congress in the middle of a ping-pong contest to resolve it. It 
is horrible, and I think we have a solution. We need to adopt 
that.
    That is a big, serious issue that you have to resolve, and 
I will be glad to sit down at anytime and get that behind us.
    The financing issue is another big elephant, and that does 
need to be resolved. I think Mr. Oberstar and I came to some 
conclusions, and I hope we don't have to revisit that too much.
    Finally, there are, and I have been quoted in the press 
saying there are, some half-baked proposals in here that need 
to come out. Everybody knows what they are. I don't want to go 
over all of them.
    They will hurt our airliners, the airline industry which is 
already on its third. I was going to say its second time on its 
knees. It is the third. But we don't want them down and out for 
the count.
    We have to have some reasonable provisions, whether it is 
the foreign repair stations, the insect notification--I see, 
thankfully, Mr. DeFazio is gone--the OSHA standards and some of 
the other issues. You know what I am talking about.
    Finally, we have to do something, Mr. Chairman and Mr. 
Ranking Member and Mr. Oberstar, as soon as we get an FAA 
Administrator in place, about getting airspace redesign in the 
New York City area. They tell me now that 83 percent of our 
chronically delayed flights emanate from the Northeast Corridor 
and the New York City area, and I have done hearings and 
meetings from Philadelphia to Connecticut. That has to be 
resolved.
    It has to be resolved. So whether it is in FAA 
reauthorization along with NextGen, which is also important, it 
must be resolved.
    So those are my comments, and I yield back the balance of 
my time.
    Mr. Costello. You have no time left, Mr. Mica.
    [Laughter.]
    Mr. Costello. Let me say, just comment quickly because we 
are down to five minutes to get to the floor, and we do have 
three votes. We will come back immediately.
    Let me comment on a few of Mr. Mica's comments. I think we 
are in agreement on several things. One is the reauthorization 
bill that passed the House in September, 2007. Unfortunately, 
we had no control over its destiny because the Senate didn't 
act as they didn't act on a lot of bills.
    On getting a new Administrator in place, we had a meeting 
yesterday with Secretary LaHood. I have met with him three 
times in the last weeks and stressing the importance of several 
things. The Administration has only been in office 21 days, and 
they have already made an offer, and they are negotiating with 
the person they want to see become the Administrator. So I 
think they are moving with due speed and due diligence.
    Last but not least, my friend, Mr. Mica, says there are 
some half-baked ideas in here. That may or may not be true. It 
depends on who the cook is and who is doing the baking. But 
those are things that we will have an opportunity to discuss 
and talk about during the markup when we bring this legislation 
to the Committee for a markup.
    With that, I thank Members.
    There are three votes on the floor. We will come back 
immediately right after the third vote.
    I would ask Mr. Miller and others to get our first panel of 
witnesses up to the witness table, and we will begin 
immediately upon return, and the Subcommittee will stand in 
recess.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order.
    We will hear from our first witness, Congressman Mike 
Thompson, a Congressman representing the First District of 
California, who has been a very strong advocate for a Passenger 
Bill of Rights.
    Congressman Thompson.

 TESTIMONY OF THE HONORABLE MIKE THOMPSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Thompson. Thank you, Mr. Chairman and Ranking Member 
Petri and other Members of the Committee. Thanks for the 
opportunity to provide testimony at your hearing today on the 
FAA Reauthorization Act.
    I am here again today regarding the airline passenger 
rights almost 2 years after my first appearance at this 
Subcommittee on this very same topic and more than 10 years 
since Congress first examined the problem of extended delays 
after hundreds of passengers were stuck in planes on snow-
congested Detroit tarmacs in January of 1999, and I believe it 
is time for Congress to act to protect the flying public.
    Americans should not be held without food, water and other 
necessities when they set foot on an airplane. Since 1999 and 
despite countless industry promises, little or no progress has 
been made toward ensuring that airline passengers have some 
basic rights during excessive ground delays.
    It took nearly a year for then Secretary of Transportation 
Mary Peters' Tarmac Delay Task Force to issue a report this 
past November on how airlines, if so inclined and only when 
practical, might improve onboard conditions for stranded 
passengers. None of the improvements recommended in that report 
were mandated and yet again relied entirely upon voluntary 
action by the airlines.
    Secretary Peters' report did nothing to help solve the 
problems of excessive delays. As the New York Times editorial 
staff opined after its released, this report was tantamount to 
telling passengers, ``Suck it up and sit there on America's 
unfriendly tarmacs for as long as it might take.''
    The lack of voluntary action by airlines for the past 10 
years only underscores the absolute necessity of including the 
same passenger rights provisions passed as part of the FAA 
Reauthorization Bill during the 110th Congress in this version 
that you are considering today.
    These provisions would finally require air carriers and 
airports to submit an emergency contingency plan in the event 
of excessive delays to the Secretary of Transportation for 
approval. These plans must detail how the air carrier will 
provide food, drinkable water, working restroom facilities, 
adequate cabin ventilation and access to medical treatment.
    I recently introduced legislation. It is H.R. 624, the 
Passenger Bill of Rights for 2009 which includes the passenger 
rights provisions that you are considering here today as part 
of this reauthorization measure but with one important 
difference. Instead of requiring deplanement after ``excessive 
delays,'' my bill calls for deplanement after three hours. By 
not defining what excessive delays actually means in the 
current legislation, Congress is yet again leaving it to the 
airlines to self-regulate, an approach that has failed 
miserably over the past 10 years.
    I urge the Committee during the markup of this legislation 
to adopt the language included in my bill which sets for the 
three-hour standard along with important exceptions to be used 
at the discretion of the pilots.
    Mr. Chairman, after 10 years, it has finally come time to 
pass these basic passenger protections. Thank you for your past 
assistance. You have been on great on this and on this issue 
and continued support by including these provisions in the FAA 
Reauthorization Act of 2009 Act.
    Furthermore, if history repeats itself and this bill is 
passed by the House but becomes excessively delayed on the 
Senate tarmac, I respectfully request that you support my 
efforts to take these passenger rights provisions as a 
standalone bill to the House floor for immediate consideration.
    Again, I appreciate the work of the Subcommittee and your 
support on this issue over the course of the last couple of 
years. I hope that this year we can finally bring this issue to 
resolve, and thank you for allowing me to testify today.
    Mr. Costello. We thank you for testifying here today, 
taking time out of your schedule. We know how strongly you feel 
about the issue, and I think we are all in agreement that if we 
leave up to the airlines as we have in the past to self-
regulate, it won't happen.
    So we look forward to working with you between now and the 
markup and continuing working with you on this and other 
important issues.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Costello. The Chair will ask the second panel of 
witnesses to come forward please. Actually, it is the first 
public panel. It is the Honorable Nancy LoBue, Acting Assistant 
Administrator, Aviation Policy, Planning and Environment with 
the FAA; Dr. Gerald Dillingham, Director of Physical 
Infrastructure Issues, U.S. Government Accountability Office; 
The Honorable Calvin Scovel, III, the Inspector General of the 
U.S. Department of Transportation.
    I would remind all of our witnesses that your entire 
statement will appear in the record. We would ask you to 
summarize your statement in five minutes or less.
    And with that, Ms. LoBue, you are recognized.

   TESTIMONY OF THE HONORABLE NANCY LOBUE, ACTING ASSISTANT 
   ADMINISTRATOR, AVIATION POLICY, PLANNING AND ENVIRONMENT, 
    FEDERAL AVIATION ADMINISTRATION; DR. GERALD DILLINGHAM, 
   DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
ACCOUNTABILITY OFFICE; AND THE HONORABLE CALVIN L. SCOVEL, III, 
      INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. LoBue. Thank you, Chairman Costello, Congressman Petri 
and Members of the Subcommittee.
    As the Chair said, my name is Nancy LoBue, and I am the 
FAA's Acting Assistant Administrator for Aviation Policy, 
Planning and Environment.
    Unfortunately, our Acting Administrator was ill today and 
unable to appear with you, so I am appearing in her place.
    I would like to thank you for inviting us here today to be 
part of your discussion about the reauthorization of the FAA. 
We look forward to working with this Committee and the new 
Congress on achieving a robust multi-year bill that will help 
ensure the safety of the flying public and the efficiency of 
the National Airspace System.
    There is a consensus in the aviation community, including 
the FAA, that multiple short-term extensions, as we have had in 
the last 18 months, are burdensome and disruptive and do not 
permit the careful planning and efficient execution that is 
necessary for successful infrastructure and technology 
programs.
    We appreciate the hard work and efforts that this Committee 
has put into H.R. 915. As the new Administration settles in and 
continues to get its policy team in place, the bill will be an 
immediate focus as we work to develop an administrative 
position. In the meantime, please accept my gratitude on behalf 
of the Administration for your efforts in moving FAA's 
reauthorization forward.
    Secretary LaHood has made his safety goals for all of DOT 
and especially FAA quite clear. At the FAA, our highest 
priority is always safety. We are currently in the safest 
period in commercial aviation history, and every day, every 
hour we are doing everything we can to make sure that that 
continues.
    For example, the FAA is making it a priority to reduce the 
number of runway incursions, and we are seeing results. There 
were no serious runway incursions in the first quarter of 
fiscal 2009. Not a single Category A or B event during 12.8 
million aircraft operations.
    We have also accelerated our runway status lights program, 
and the systems are scheduled to be installed at 22 of the 
Nation's busiest airports by 2011.
    The Secretary has indicated several times that one of his 
immediate goals is to fill the position of the FAA 
Administrator. He has expressed that the new Administrator will 
be one who can advance NextGen and be someone with the people 
skills to resolve outstanding labor issues, something which I 
know many of the Members of this Committee are also committed 
to.
    We are also pleased that just two weeks the GAO removed the 
FAA's Air Traffic Control Modernization Program from the high 
risk list for the first time in 14 years. GAO noted that 
management focus and willingness to attack and rectify our 
shortcomings and our plan for continued improvements were the 
reasons that it felt comfortable removing FAA modernization 
from their high risk list.
    Finally, no organization is successful without its most 
valuable asset, its workforce. Controller hiring is up. We have 
exceeded our hiring goals for fiscal year 2008, and we are on 
track to meet our end of year hiring goal in fiscal 2009.
    The new controllers are completing their training faster. 
In fact, we anticipate 1,000 new hires will complete training 
to reach full certification this year compared to 762 last 
year.
    Controller retirements have also leveled out and are 
trending below what we had projected for this year.
    As you can see, we are still actively moving forward on all 
key areas. The FAA is a growing, learning organization 
dedicated to the safety of the traveling public and the 
efficient operation of the National Airspace System.
    We look forward to supporting President Obama and Secretary 
LaHood's agenda for aviation, the new FAA Administrator, and to 
working with this Committee and the rest of Congress on FAA 
Reauthorization. In the meantime, we remain focused on our 
duties to ensure aviation safety and efficiency.
    Mr. Chairman, Congressman Petri and Members of the 
Subcommittee, this concludes my prepared remarks. I would be 
happy to answer any questions that you might have.
    Thank you.
    Mr. Costello. Thank you for your testimony, and the Chair 
now recognizes Dr. Dillingham who has testified before this 
Subcommittee many times.
    Mr. Dillingham. Good afternoon, Mr. Chairman, Mr. Petri. 
Thank you for the opportunity to again appear before this 
Subcommittee.
    My testimony this afternoon identifies some key 
reauthorization issues that will need to be addressed to 
maintain the safety and efficiency of the current National 
Airspace System and to move expeditiously towards NextGen. I 
will also offer some general observations on the 
reauthorization.
    First, with regard to the current system, the first issue 
is safety. FAA must enhance its ability to monitor and manage 
risk by collecting complete and accurate safety data from all 
segments of the industry.
    Such data include information that is currently provided 
through FAA's voluntary reporting program as well as 
operational data from industry sectors such as air ambulances, 
cargo aviation and general aviation. This information is not 
generally collected or tracked on a system-wide level.
    The ability to collect and analyze these types of data is 
particularly important as the Agency transitions to a data-
driven, risk-based safety management system approach for 
aviation.
    Another reauthorization issue is related to the existing 
ATC facilities and systems. Some of these facilities and 
systems will continue to form the core of the National Airspace 
System for a number of years and, in some cases, will become a 
part of NextGen. Continued reliance on these facilities and 
systems will require the Agency to identify the necessary 
resources and skilled personnel to implement both a robust 
facility renovation plan and a system maintenance strategy.
    As you know, H.R. 915 contains a provision for FAA to 
develop a Facility Reconfiguration Plan. Until FAA develops 
such a plan which considers both safety and cost effectiveness, 
the facility configurations needed for NextGen cannot be 
implemented. In addition, potential savings that could help 
offset NextGen costs cannot be identified.
    Another reauthorization issue is critical workforce 
concerns. Specifically, FAA will have to continue to hire and 
train thousands of air traffic controllers and other technical 
professionals. It will also need to work to improve relations 
with its labor unions.
    Turning to NextGen, to its credit, FAA has taken important 
steps such as forming partnerships with industry and planning 
for a mid-term implementation to accelerate the availability of 
NextGen capabilities by 2018.
    FAA will also need to work with stakeholders to explore a 
range of potential incentives for aircraft operators to 
purchase NextGen avionics and for suppliers to develop those 
avionics.
    Additionally, FAA will need to acquire staff with technical 
skills, such as systems engineers, and contract management 
expertise to implement of NextGen. FAA estimates it will need 
to hire about 350 additional staff over the next 2 years to 
obtain these needed skills.
    Mr. Chairman, it is worth noting that our work has shown 
that even with the full implementation of NextGen there will 
still be a need to build infrastructure projects such as 
runways and taxiways to accommodate anticipated future travel 
demands.
    Building runways is often a long-term effort that involves 
a resolution of some difficult environmental concerns. Adequate 
funding is critical for aviation research and development 
initiatives aimed at addressing environmental concerns. The 
CLEEN initiative and other environmental provisions that are 
contained in H.R. 915 would begin to provide such funding.
    Mr. Chairman, the last issue I would like to highlight is 
the importance of enacting a multi-year reauthorization.
    Additional short-term funding extensions and continuing 
resolutions could hamper the planning and development of 
airport infrastructure projects, particularly those that are 
funded through the AIP program, and in fact increase the cost 
of those projects. It could also delay critical NextGen 
decision points and, maybe most importantly, it could postpone 
the achievement of the mid-term NextGen goals for operational 
capabilities and improvements for the National Airspace System.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Dr. Dillingham.
    General Scovel.
    Mr. Scovel. Chairman Costello, Ranking Member Petri, 
Members of the Subcommittee, we appreciate the opportunity to 
discuss the key issues for reauthorizing FAA.
    We understand that the Committee's reauthorization bill, 
H.R. 915, was introduced in the House on Monday.
    The aviation landscape has changed significantly since 
Congress last debated proposals for reauthorizing and financing 
FAA. U.S. airlines have been buffeted by the softening economy 
and volatile fuel costs. As a result, they have reduced 
capacity and grounded hundreds of aircraft although load 
factors remain high.
    The decline in traffic has also impacted the Aviation Trust 
Fund, the largest source of revenue for FAA's $15 billion 
annual budget. Trust Fund revenues declined by more than 11 
percent during the first quarter of 2009. Given the drop in 
traffic and the resulting decline in passenger taxes, Trust 
Fund tax revenues will likely decrease significantly during the 
balance of fiscal 2009 and perhaps in fiscal 2010 as well.
    Notwithstanding the uncertainties facing the industry and 
FAA, this situation provides FAA with opportunities to 
strategically position itself for an industry rebound.
    We see four overarching areas for FAA's efforts:
    First, maintain public confidence in FAA's ability to 
provide oversight of a dynamic industry.
    The Southwest Airlines incident last spring disclosed 
multiple weaknesses in FAA's oversight of that carrier's 
maintenance program. One of the troubling findings was that FAA 
missed numerous inspections of the carrier's maintenance 
program, allowing safety directive compliance issues to go 
undetected for years. Our ongoing review has found similar 
missed inspections at seven other major carriers.
    FAA must bolster the integrity of its oversight by 
establishing mechanisms at the national level to provide 
effective oversight of field efforts.
    FAA must also follow through on longstanding commitments to 
improve oversight of external repair facilities. FAA's risk-
based oversight system does not yet include critical repairs 
performed by non-certificated repair facilities. It also does 
not require that air carriers report all repair stations 
performing repairs to critical components.
    FAA must advance risk-based oversight of outsourced 
maintenance providers by implementing a system for determining 
how much and where aircraft maintenance is performed.
    Runway incidents also continue to be a substantial threat 
to safety. Many see new technology as the solution, but our 
work on three major technologies for improving runway safety 
has raised concerns about what can be effectively deployed 
within the next several years. FAA and industry must implement 
airport-specific infrastructure and procedural changes and 
reinvigorate national FAA programs to improve runway safety in 
the near term.
    Second, set expectations and budget priorities for NextGen, 
a high-risk effort involving billion-dollar investments.
    After more than 4 years of planning, FAA must now shift 
NextGen to implementation. FAA has focused its attention on 
mid-term objectives, but fundamental issues must be addressed. 
These include:
    First, completing a gap analysis of today's system and 
NextGen and refining the NextGen mid-term architecture.
    Second, establishing priorities with stakeholders and 
reflecting them in budget requests and plans, so decision 
makers can determine what to invest in first.
    Third, managing NextGen initiatives as portfolios and 
establishing clear lines of responsibility, authority and 
accountability. This is needed because new systems must be 
combined with procedural and airspace changes to deliver 
benefits.
    Finally, identifying the number and types of facilities 
that will be needed to support NextGen. FAA must address the 
technology and security prerequisites and cost drivers 
associated with facility consolidation for decision makers to 
know what can be reasonably accomplished.
    Third, bolster key safety workforces. FAA continues to face 
significant attrition in two critical safety workforces: air 
traffic controllers and aviation safety inspectors.
    Through 2017, FAA will hire and train nearly 17,000 new 
controllers to replace those who were hired after the 1981 
strike and are now retiring. A major challenge will be training 
and certifying the huge surge of new controllers at their 
assigned locations, a process that currently takes up to 3 
years.
    Controllers in training now represent 26 percent of the 
workforce, up from 15 percent in 2004. However, many key 
facilities, such as the Southern California TRACON, which 
expects to have nearly 100 controllers in training this year or 
over 40 percent of its workforce, already exceed the national 
level.
    FAA must also ensure that it has a sufficient number of 
properly placed safety inspectors. It is not reasonable to 
expect FAA to have an inspector workforce large enough to 
oversee all aspects of a dynamic aviation industry. Therefore, 
it is critical that FAA ensure its inspectors are placed where 
they are most needed. Delivery of FAA's new staffing model this 
year remains an important watch item.
    Finally, finance and establish controls over future airport 
development. Airline service reductions and capacity cuts have 
significantly impacted airports, especially in small 
communities, some of which have lost commercial service 
entirely. At large airports, declining revenues have led to 
concerns that some infrastructure projects will be delayed.
    The economic stimulus packages proposed in the House and 
Senate contain significant funding amounts for the AIP that 
will help to revitalize airport development this year and next. 
However, such a large, rapid infusion of new funds could create 
significant oversight challenges for FAA, including pressure to 
begin projects quickly.
    FAA must prepare for the potential risks and take steps to 
mitigate them. My staff is working with FAA and the Department 
to identify risks, oversight challenges, and best practices 
associated with the stimulus funding for the AIP.
    That concludes my statement, Mr. Chairman. I would be happy 
to answer any questions you or Members of the Subcommittee may 
have.
    Mr. Costello. Thank you, General Scovel.
    Let me just make a few comments.
    Ms. LoBue, as a I said earlier in the opening statements, 
we had a good meeting with the Secretary, Secretary LaHood, 
yesterday. We understand that the process is moving forward on 
a fast track as far as a new Administrator is concerned. And 
we, of course, hope that that happens sooner, rather than 
later, so that we can begin the process of doing things that 
need to be done over at the FAA.
    Secondly, Dr. Dillingham, I couldn't agree with you more. 
The labor issue needs to get behind us. We expressed that to 
the Secretary and have expressed that to others as well. It is 
having an effect on morale throughout the Agency, and it is 
having an effect on the implementation of NextGen. So we 
appreciate your making note of that in your testimony.
    At this time, the Chair recognizes the Ranking Member, Mr. 
Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I have a number of questions which I will submit for 
written response in light of the lengthy panel agenda we have 
today and the need to get the testimony of all the witnesses 
and would yield my time to the two Members who have requested 
an opportunity to ask questions on this side, Mr. LoBiondo and 
Mr. Coble, starting with Mr. Coble.
    Mr. Coble. I thank the gentleman, Mr. Chairman and Mr. 
Ranking Member. I will be very brief in view of the time frame.
    Ms. LoBue, what impact have the short-term extensions had 
on the FAA's ability to issue grants to airports.
    Ms. LoBue. We have had some problems with having short-term 
extensions, meaning that those kinds of grants and those 
projects with letters of intent that over a long period are 
disrupted with the kind of on and off nature of having 
extensions. You have to treat an extension as if it is the only 
time period that you are allowed to do the work. So that can be 
disruptive in the AIP program, very much so.
    Mr. Coble. Well, how will the proposed stimulus package 
complicate or improve the situation or will it have either 
effect on it?
    Ms. LoBue. My understanding of the stimulus package is that 
FAA stands ready to implement the funding numbers, the type of 
numbers that have been talked about in both the House and the 
Senate over a two-year period of time. Such a more extended 
period of time gives us a better chance for implementation than 
when we have had six-month extensions or three-month 
extensions.
    So I think we actually feel the stimulus, in the way it is 
set up, although there are some issues with workforce 
implementation, we do believe we will be able to follow through 
on what Congress has talked about putting in place.
    Mr. Coble. Thank you, ma'am.
    Dr. Dillingham, let me put the same question to you. What 
impact, in your opinion, has the short-term extensions had on 
the FAA's ability to issue grants to airports?
    Mr. Dillingham. Mr. Coble, in the same vein as Ms. LoBue 
talked about, when grants are issued in sort of spurts, the 
airports can only commit a certain amount to construction, and 
one of the things that happens is that the construction crews 
will pack up and go to another job. When the money becomes 
available again, they come back. But what that does is extends 
the time as well as extends the cost of a project when they 
come back in place again.
    So when you don't have a situation where you know that the 
money is coming and the amount that is coming, it makes it very 
difficult especially for medium-size airports. Big airports and 
little airports, it is less of a problem. But the medium 
airports, that affects them more.
    Mr. Coble. I thank you, sir.
    And, finally, Mr. Scovel, with the recent disclosure of a 
security breach of one of the FAA's servers, do you have 
concern about the FAA's ability to protect critical systems 
from cyber attacks?
    Mr. Scovel. Thank you, Mr. Coble.
    Yes, we do, but I would like to note first that FAA has 
taken steps to improve its cyber protection program in recent 
years, and my office has been working with FAA and the 
Department along those lines.
    Some of the concerns that I have with FAA are unique to 
FAA, and some extend to all agencies across Government; I will 
cite three specifically.
    The first has to do with technology changes. FAA has moved 
increasingly, as have many agencies, to an internet protocol-
based technology in modernizing its systems. This is in marked 
contrast to previous practice some time ago when agencies would 
develop proprietary software and operate it in a closed network 
environment, which greatly limited the opportunity, of course, 
for hackers to gain access. With an internet-based system, 
hackers' access is a much greater risk.
    The second point I would raise is system interconnectivity. 
Unlike most Government systems, FAA systems are highly 
connected to each other. They must be in order to operate the 
NAS. But security, as we all know, is only as strong as the 
weakest link. So, if a hacker is able to gain access to even 
one system, then potentially other systems are at risk as well.
    Finally, outsourcing. FAA, like other agencies, has turned 
increasingly to outsourcing. It has forfeited some aspect of 
direct control over information security, and that remains a 
concern for us.
    We have two ongoing audits within the FAA on this, both 
performed in response to requests from this Committee. One has 
to do with web application security in air traffic control 
systems, and the second involves information security and 
privacy protection of medical records of hundreds of thousands 
of airmen. Both of those topics have been of concern to the 
Committee, and we are responding to the Committee's requests.
    Mr. Coble. Thank you all.
    I thank the gentleman from Wisconsin. I will let him 
reclaim.
    Mr. Petri. Thank you.
    I would yield to Mr. LoBiondo. I know you are trying to 
juggle a couple of balls and we want to let you.
    Mr. LoBiondo. Thank you very much, Mr. Petri.
    Mr. Chairman, thank you for holding this hearing.
    To our panel, thank you for being here.
    Ms. LoBue, just a matter of point of reference, I represent 
the FAA Technical Facility in Egg Harbor Township. And, of 
course, I, along with many others, am very concerned with the 
news that we got yesterday about the personnel records of some 
45,000 FAA employees including probably more 1,500 that are in 
my district. We understand that the hackers were able to access 
employee names, addresses and social security numbers along 
with some other information.
    Of course, I think I probably share everyone's 
disappointment that in the wake of the breaches of information 
that occurred with the VA where we thought, Members of Congress 
believed, that agencies were going to take steps to do 
something, that this actually occurred. For whatever reason, it 
didn't, and I am sure you will have more information on that in 
the future.
    What I would like to know is that does the FAA intend to 
help protect the employees from identity fraud? Do you have any 
measures that you are planning on doing?
    Ms. LoBue. The answer to that is yes. Frankly, as one of 
the employees whose personal information is at risk--I am one 
of those 45,000 people--I am very concerned about this event.
    FAA has taken both some short-term and some long-term 
measures for the immediate future to make sure this doesn't 
happen again while we buttress, and obviously we will be 
working with the OIG on how we can buttress, our systems.
    There is some discussion as to how much we can do to 
protect the employees, and we will be coming out with 
information on that pretty quickly, but we are committed to do 
something, yes.
    Mr. LoBiondo. Have you had any discussions if you are 
prepared to offer employees free credit monitoring like the VA 
did?
    Ms. LoBue. That is my understanding, yes.
    Mr. LoBiondo. That you will be doing that?
    Ms. LoBue. Yes.
    Mr. LoBiondo. And you will be briefing us or at least the 
Chairman on what steps actually will be involved to help 
protect those employees and what you will do to keep this from 
happening in the future?
    Ms. LoBue. Yes, sir. We will come up. Like I said, we are 
doing some short-term and some long-term things. I think we are 
still getting all of our plan together. We would be more than 
willing to come up and brief the Committee in detail.
    Mr. LoBiondo. Would you expect that you would be prepared 
to share with us what your plans would be for the employees and 
for future protections and what time period?
    Ms. LoBue. That would be part of the briefing, yes, sir.
    Mr. LoBiondo. I mean are we talking about six months, a 
month?
    Ms. LoBue. Until we will be ready? No. I think we could 
come up within the next week or two.
    Mr. LoBiondo. In the next week or two.
    Ms. LoBue. Yes.
    Mr. LoBiondo. Mr. Chairman, hopefully, you will follow up 
with them and let us know.
    Mr. Costello. We will indeed, and we would ask you to 
contact the staff when you are ready to come up and to brief 
us.
    Mr. LoBiondo. Thank you very much, Mr. Chairman.
    Thank you, Ms. LoBue.
    Mr. Costello. I thank the gentleman from New Jersey and now 
recognize the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I just 
have one question, and it would be directed to Ms. LoBue.
    As you may know, Dr. Dillingham I think was questioned and 
said that FAA management's and the unions' poor relationship 
could slow the implementation of NextGen. So the core of that 
poor relationship has to do with the imposition of what I 
consider to be an unfair contract. Can you tell me what is 
going on at the FAA in terms of reopening negotiations for the 
contract?
    Ms. LoBue. The Secretary has indicated that his priority is 
getting on board an Administrator who will be willing to work 
through the workplace issues and the union issues and get that 
behind us. As I understand it, he has had conversations with 
the Committee to indicate that that is going to be in the 
pretty immediate future, and that is one of his highest 
priorities.
    Mr. DeFazio. Okay. So we would revisit the imposed contract 
and work conditions is the position as you understand it.
    Ms. LoBue. My understanding is this is one of the highest 
priorities of the Secretary.
    Mr. DeFazio. Okay. Okay. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman from Oregon and now 
recognize the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman.
    Ms. LoBue, Dr. Dillingham has made a statement in his 
written statement that the strained relationship between the 
FAA management and unions could slow the implementation of 
NextGen. What is your response to that?
    Ms. LoBue. I think we believe that the new Administration 
has made it very clear that they intend to work through the 
workforce issues. While we have had some input from controllers 
involved in the past, I think we all recognize that the 
workforce is a critical piece of getting NextGen on board, and 
the new Administration has that as one of its highest 
priorities.
    Mr. Boswell. Dr. Dillingham, any comment on that?
    Mr. Dillingham. Yes, Mr. Boswell. I think there are many 
elements to sort of working out the relationship, the labor-
management relationship, but one of the things that we sort of 
want to highlight is the fact that not only NATCA but the other 
union Members need to be active participants in the 
development, the design of NextGen.
    I mean there are other labor-management issues, but what we 
have seen in the past is unless the stakeholders are intimately 
involved it tends to make things cost more and take longer to 
get them done. So, hopefully, that will be a part of bringing 
things together is bringing the stakeholders on board.
    Mr. Boswell. I think that is historical.
    Ms. LoBue, just to continue a little bit, what steps are 
you taking to ensure that you have the staff you need to meet 
the needs of the NextGen?
    Ms. LoBue. This Committee has been very generous in helping 
us hire inspectors. So, as I said, safety is always first and 
foremost.
    I think from the point of getting NextGen in place, we have 
just issued at the end of January our NextGen implementation 
plan which focuses more on the mid-term. I think we have come 
forward previously with a fairly concerted effort on what the 
next five years looks like.
    Mr. Boswell. So you think you have the contract management 
expertise? You think you have the systems engineering you need 
and staff with the technical skills?
    Ms. LoBue. I think we are concerned about staff with 
technical skills. We see a shortage coming just as do all 
technical-oriented businesses. That said, I think GAO 
recognizing and taking us off the high risk list shows that we 
have really put a premium on putting in place systems that will 
manage contracts in a better and more effective, cost-effective 
manner.
    So, yes, sir.
    Mr. Boswell. Dr. Dillingham, your comment?
    Mr. Dillingham. Mr. Boswell, FAA does recognize that it has 
a need. Some of the things that it needs for NextGen are 
different than what it needed for the previous ATC 
modernization program. What we are concerned about is the need 
for those highly skilled technical people that are going to be 
desired across the whole spectrum of the economy.
    On the plus side, because of the nature of the economy, it 
might be easier for FAA to attract those kinds of people, but 
what we are talking about is the timing. These people will have 
to be brought into FAA, integrated into FAA, familiarized with 
NextGen. And so, we are talking about something that could 
throw the schedule off if we don't move immediately to address 
this issue.
    Mr. Boswell. General Scovel, would you comment, please?
    Maybe, do you think we are doing enough? Is FAA doing 
enough to address the attrition of air traffic controllers to 
start?
    Mr. Scovel. FAA has done what I can only say is a 
remarkable job in hiring replacements for air traffic 
controllers who have decided to leave the workforce.
    The attrition over the last 3 to 4 years has amounted to 
almost 5,000 controllers, and 2,657 have been retirements. 
FAA's projections have been a little bit low, by about 16 
percent, in determining what that attrition rate would be.
    Mr. Boswell. What percent did you say?
    Mr. Scovel. Sixteen percent low over the years. However, 
FAA has managed to increase hiring efforts and, in fact, now 
has some 270 more controllers onboard than it did in 2004.
    Mr. Boswell. Is that adequate?
    Mr. Scovel. We do have concerns, not over the total size of 
the workforce, sir, but mostly over the skill level, the 
training level of the controllers who are currently Members of 
the workforce.
    The number of certified professional controllers, those who 
are fully capable of operating on their own in their 
facilities, has diminished as the controllers in training 
numbers have greatly increased. At some facilities, controllers 
in training amount to upwards of 40 percent of the workforce at 
that facility, and that can be a problem in terms of training 
those new controller because each new controller requires a 
certified professional controller to walk them through the 
steps.
    Mr. Boswell. Thank you.
    Thank you, Mr. Chairman. My time is up, but I think we are 
going to have to give some more continued attention to this.
    Mr. Costello. Well, let me just follow up and make a 
comment to your question to General Scovel. I was, not too long 
ago, in the air traffic control tower in Orlando, and at the 
time there were 10 controllers on duty. Only one had one year 
of experience. The rest of them had been on the job less than 
one year.
    So when I think of what happened with U.S. Airways in the 
Hudson River, I think about the experience that was involved 
with everyone from the flight attendants to the pilots to the 
air traffic controller to the responders and the level of 
experience that they had.
    One has to wonder that with an air traffic control force 
where we are losing the most experienced controllers at the 
rapid pace that we are losing them, it does make one concerned 
about a lack of experience in a very critical position.
    The Chair now recognizes the gentlelady from Hawaii, Ms. 
Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    I have some questions for Ms. LoBue, and I note that your 
testimony focused on safety and efficiency of aviation as prime 
concerns. So I have two questions relating to safety.
    I have learned recently that thousands of corporate 
aircraft as well as the craft used by the Secretaries of 
Transportation and Homeland Security, senior military leaders 
and the FAA personnel have technology on this aircraft that 
enable pilots to see under conditions of unstoppable blinding 
smoke in the cockpit. I was surprised to learn, however, that 
there is no FAA requirement that passenger airliners or 
military aircraft have equivalent systems to ensure that pilots 
can see in the cockpit under these kinds of conditions.
    The technology in question costs approximately $25,000 to 
$30,000 per aircraft which equates to a penny or so per ticket 
over the life of the system.
    As I understand it, the FAA's minimum safety standard is 
that any failure of systems or components that result in 
catastrophic consequences must be extremely improbable, and 
there is a definition for extreme improbability.
    But according to information that I have and if you Google, 
for example, smoke in cockpits, you will see dozens and dozens 
of incidents where smoke was in the cockpit, resulted in 
emergency landings of aircraft. There have also been numerous 
catastrophic fatal airliner incidents in which smoke in the 
cockpit has been a cause or a factor of that incident.
    When we are talking about emergency situations dealing with 
airlines, seconds count. As was the case in the U.S. Airways 
Flight 1549, seconds count.
    So I would like to know why the FAA should not mandate 
emergency vision technology to enable pilots to see their 
controls and to land safely during in-flight emergencies with 
unstoppable blinding smoke in the cockpit, especially as these 
systems and this technology is utilized on the planes that are 
used by the Secretaries of Transportation and Homeland 
Security, senior military leaders and thousands of corporate 
aircraft.
    Ms. LoBue. Thank you. I am not personally able to answer 
this question for you, but I would offer that we will get the 
people that know at FAA to come up and brief you very quickly.
    Ms. Hirono. Well, I know that smoke in the cockpit is 
something that occurs, as I mentioned, relatively frequently 
and that this is an issue that has been around for decades.
    I am a new Member to the Committee, so I have recently been 
apprised of this, and I would really urge FAA too. Because you 
are focusing on safety and nothing could be more important than 
the safety of aviation passengers, that since the technology is 
there, it is utilized, it doesn't cost very much, I would 
encourage FAA to make that requirement.
    The second question I have is in the 1990s the FAA 
contracted operations of a number of Level I airport towers 
operating under visual flight rules--these are Class D 
airports--to private operators, and one such tower is in the 
Kona International Airport which is in my district on the 
Island of Hawaii. This airport is currently classified as a 
Class D airspace and therefore does not have approach control 
run by the FAA. However, we know that over the past 15 years 
Kona Airport is one of the busier airports and it more than 
qualifies for Class C status. They have over 1.3 million 
passengers compared with the minimum of 250,000 for a Class C 
airspace. And Class C airspace requires FAA approach control.
    I have been told by some flight professionals, pilots, air 
traffic controllers, and they have expressed concerns of safety 
issues at the Kona Airport.
    The contract, private contract is about to expire, and I 
think that this is a really good time for the FAA to review the 
safety needs at this airport with the idea that it should. The 
question as to whether or not this airport should return to FAA 
control is, one, definitely timely and I think really important 
for the safety of the passengers going to that airport.
    I would ask you to look into it and if you could respond to 
me, but if you can't right now, then later.
    Ms. LoBue. So, yes, I would absolutely commit to you that 
we will look into that and get back to you very quickly.
    Ms. Hirono. Thank you.
    I yield back the rest of my time.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Chairman Costello and Ranking 
Member Petri for organizing this important meeting on the FAA 
Reauthorization Act of 2009.
    As aviation is a critical mode of transportation for our 
Nation and for our world, to all the witnesses from the FAA, 
the airlines and, most importantly, to the hardworking air 
traffic controllers, pilots, flight attendants, ground crews 
and countless other airline and airport employees, I thank you 
for keeping air travel the safest form of travel in the United 
States.
    As the Chairman mentioned, all we have to do is look at the 
heroic crew from the U.S. Airways Flight 1549 which happened 
right in the Harbor of New York from which I come. You may have 
noticed that on the accent. How important it is to have 
experienced and dedicated people flying our planes in our air 
transport system.
    Mr. Chairman, I am excited about joining this Subcommittee, 
and I look forward to a rigorous discussion of this 
reauthorization bill. I know that this Committee and our great 
Subcommittee staff have put together a good package over the 
last few years, and I am looking forward to working with you to 
address a number of concerns.
    Of course, I support the creation of the NextGen air 
transportation system, and I encourage the use of the most 
cutting-edge satellite and GPS technology available for our 
network.
    As you know, my district includes Staten Island and the 
western portion of Brooklyn, New York, the gateway to New York 
Harbor. The New York area airports provide a critical link to 
our national aviation network, but they also are some of the 
busiest airports in the Nation, and we must work to build a 
system capacity in a way that makes sense to New York and our 
Country as a whole.
    That is why I applaud the efforts of my colleagues last 
year to oppose the Bush Administration's plan to auction off 
the air slots through congestion pricing at JFK and LaGuardia 
and, eventually, Newark. That plan was unworkable, and I am 
glad that it will not be included in this year's bill.
    Also, Newark Airport is just over the Goethals Bridge from 
Staten Island. Airplane and helicopter noise continues to be a 
big problem for my district. I hope we can work to include in 
this bill ways to study the noise around New York airports.
    Finally, all of us have heard countless horror stories 
about air delays and being stuck on the tarmac, and we need to 
make sure that the traveling public is treated with respect by 
adopting a strong passengers' bill of rights.
    With that said and your permission, Mr. Chairman, I just 
have two questions to Ms. LoBue.
    Our air traffic controllers are often the eyes and ears of 
our airplanes and are the backbone of our safety network. It 
has already been brought up by the Chairman how their training 
is so important.
    What type of outreach is going on with the FAA to reach out 
to the air traffic controllers about the airspace redesign and 
staffing issues across the Country as their experience is so 
important and how are they being included in this process?
    Ms. LoBue. My understanding is that there was some outreach 
during the development of the New York airspace redesign to the 
controller workforce. We can get you specifics on that and have 
someone come up and brief you on all the outreach that was 
done.
    Mr. McMahon. Thank you.
    Mr. Chairman, I yield the remainder of my time. Thank you.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentlelady from the District of Columbia, Ms. 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman, and thank 
you for kicking off this very important series of hearings.
    I want to identify myself with the remarks of the Chairman 
and others concerning the necessity to acquire an Administrator 
who knows how to settle disputes with the labor force, which is 
stunting all we have to do in this Agency.
    First, let me ask Ms. LoBue if you would spell out in 
greater detail the relationship between the upcoming stimulus 
and the Airport Improvement Program, or perhaps Mr. Dillingham. 
We understand from your testimony that it gets you somewhat 
beyond the six-month extensions, but would you put on the 
record how the use of these funds will move your own mandate 
for an improvement program?
    Ms. LoBue. So let me be clear, there is a core set of 
programs that needs to be reauthorized and that this 
Committee's bill would work toward.
    For the stimulus program, we have a series of projects in 
the pipeline that we believe would create jobs fairly 
immediately, and those particular items would be the project 
types that would be done under the stimulus package. And the 
stimulus, since it is----
    Ms. Norton. What types of items, for example?
    Ms. LoBue. It can be resurfacing runways. It can be putting 
in landing lights.
    We have a system of safety projects, that under the system 
called the NPIAS, we put them in priority order. Those that 
would rise to the next highest are the types of items that we 
would choose that are traditional items done under the Airport 
Improvement Program. It would just advance them from 2010 to 
2009, from 2011 to 2010.
    Ms. Norton. Well, every Committee feels an urgent need to 
make sure that these funds are used, used quickly, efficiently. 
When can you get to the Chairman of this Subcommittee and the 
Chairman of the Full Committee a list of what those projects 
will be and their readiness for implementation?
    Ms. LoBue. I would have to go back and check that, and we 
will get back to you with information.
    Ms. Norton. I think you should get back to the Chairman of 
this Subcommittee within 10 days on that information. This is a 
lot of money, $3 billion.
    Ms. LoBue. My understanding is we have the list. I am just 
not familiar enough with it myself, personally.
    Ms. Norton. Yes. All right. If you would just submit that 
to the Subcommittee Chairman within 10 days, so that we can be 
aware of it, I think it would be helpful to us all.
    I have a question that is very troubling. In this region, 
we appear to be going backwards on matters of security. The 
only public service helicopter located in this region, we have 
been informed is in danger of closing. That, of course, puts 
into jeopardy security in this high-profile, highly-targeted 
region.
    It is used, of course, by public entities: the Metropolitan 
Police Air Support Unit, the U.S. Park Police, et cetera. 
Moreover, it is this heliport, the one at South Capitol Street, 
is a part of the Department of Defense Nightingale Program. It 
is the point of departure of a number of Federal officials 
including the Supreme Court. And, on 9/11, this heliport in 
fact became the air control command tower when the airport here 
was evacuated.
    There seemed to have been some understanding of the 
importance of this helicopter because despite what was done 
with general aviation, which is essentially closing it down and 
then opening it in a way so that virtually nobody can use it, 
for two years after 9/11, the heliport continued to serve 
public service clients and corporate clients as well as news-
gathering helicopters. An agreement was reached, as you might 
expect, with the Secret Service and actually adopted by TSA.
    For reasons that I would like you to explain, since 
October, 2003, the commercial operators whose funding is 
necessary to keep the heliport open and why they have informed 
us that they are on the brink of closing, they have been 
restricted from using the heliport.
    Now understand who pilots the commercial helicopters. These 
are all people who are or have been military or police 
helicopter pilots. That is what they have to be in order to 
come into this airport.
    Now they are to the point where they cannot generate enough 
revenue to keep the heliport open without going back to what 
they had two years after 9/11. Could you explain to this 
Subcommittee why, with all of these safeguards, without 
explanation, this vital security defense service was abruptly 
cut off and what you intend to do about it?
    Ms. LoBue. I am not personally familiar with this issue. So 
I will have to get someone who is come up and brief you. We 
commit to do that within the next week.
    Mr. Costello. Ms. Norton, Ms. LoBue is here because Ms. 
Osmus, who was scheduled to be here, is ill today. So she is 
sitting in.
    Let me suggest on that issue--and we recently discussed 
this issue--we need the Department over, someone who knows and 
can answer the question. We will set up a meeting with you and 
with the appropriate people within the Agency to discuss the 
matter.
    Ms. Norton. I so appreciate that, Mr. Chairman. It is a 
matter of some urgency, I believe.
    At the same time, Mr. Chairman, may I ask?
    Mr. Costello. If it is quick. We are already a few minutes 
over time.
    Ms. Norton. Just let me ask. I am not asking a question. I 
am asking you if you would provide a similar briefing from 
whoever are the responsible officials--I appreciate that we 
made this witness a sitting duck for the entire Department--to 
explain whether they have reviewed the virtual exclusion of 
general aviation from the airport of the Nation's Capital even 
though just a few days after 9/11 it was up and running in the 
city of skyscrapers, New York City, and only because this 
Committee threatened contempt did we get it opened at all, and 
then we have such onerous requirements, people with shotguns 
onboard and the like.
    That it continues to be virtual exclusion, I would like to 
ask for an explanation and review of that policy as well.
    Mr. Costello. We will be in touch with your staff, and we 
will set up a meeting.
    Chairman Oberstar had a meeting yesterday with the 
Subcommittee Chairs and Secretary LaHood, and I think another 
meeting is going to happen sometime in the not too distant 
future. But we will set that meeting.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    Let me ask first, and I just haven't had time to look, and 
I don't know who the appropriate person to answer this question 
might be. Is there anything in the bill or is there anything 
that we already have in the way of help to help airports clear 
away fowl from the area so they don't cause disturbances with 
airplanes as we saw in New York?
    Is there any program that we have? Noisemakers? Whatever?
    Yes, ma'am.
    Ms. LoBue. The FAA does, through its airport organization, 
have guidance and programs for wildlife and bird hazard 
mitigation and works actively with most of the airports 
throughout the United States.
    It does remain a big concern, sir. You are correct.
    Mr. Cohen. Well, obviously, it does.
    Was the problem in New York that these birds were just 
lucky or unlucky? They didn't get observed by your deterrent 
effects or your monitoring system and then they ran into the 
plane or vice-versa or what?
    Ms. LoBue. My understanding is the monitoring systems are 
mostly down at a lower level and these were at a higher level. 
I am not familiar enough.
    Obviously, they are still going through all the facts, and 
the NTSB has not come out with all of its reports yet. But, 
that said, we do work the issue particularly through the 
airports, at the lowest altitude levels.
    Mr. Cohen. What gets geese to go the other way except for 
the weather?
    Ms. LoBue. I can get you more information on the program. 
They have deterrents whether it is through actively working to 
replace water hazards or other things like that.
    New York is complicated in that the airport is right on the 
water, and there is a wildlife refuge there. So they actually 
have a considerable problem that they do try and mitigate.
    Mr. Cohen. But it is on your radar, so to speak?
    Ms. LoBue. Absolutely.
    Mr. Cohen. Thank you.
    Let me ask all three of you : Could you safely say that you 
are all in favor of the passage of this bill?
    I see one nod.
    Mr. Dillingham. Mr. Cohen, we are definitely in favor of 
the passage of the bill. We have worked with the Committee to 
help provide some of the background information that is behind 
the bill. So we are definitely in favor of it.
    Mr. Cohen. Let me ask you this: There is a provision in 
here that deals with labor laws and deals with Federal Express 
which is the number one carrier of cargo in this Country, and 
it would require them to be under the National Labor Relations 
Act rather than the Railway Labor Act. The courts have ruled 
that is appropriate legislatively and also in courts, 
judicially, that that is the proper place for labor disputes to 
be determined for the good of the Country because if there is a 
strike there in some remote section of the Federal Express 
system and FedEx is halted in this particularly recessionary 
time, if not at all times, commerce comes to a halt.
    Are you all familiar with that provision? Are any of you 
familiar with it?
    Nobody is familiar with it?
    Well, and you endorse the bill.
    My question to you is this: In my opinion, and I come from 
Memphis. That is maybe considered provincial. But Federal 
Express covers the entire United States, the entire globe, and 
this issue has the potential to stop this bill.
    I am in favor of the bill as you are and think it is real 
important, as does my airport authority, that we have the Next 
Generation, that we have runway improvements, that we have all 
the provisions in the bill to help move us forward.
    But this one labor provision is not germane and that the 
three of you all aren't even familiar with. And yet you are 
experts on the field--the pros from Dover, as they would say in 
MASH--and aren't even familiar with it could hold up this bill.
    And I think that is a serious problem and especially in the 
Senate because they have, effectively, hijacked the stimulus 
bill with three individuals, and I suspect that the same thing 
could happen over there on this bill. I would hate to see us 
not get this bill passed because of a provision that is very 
important to the future of this Country's economy and that is 
not necessarily germane to runways, extensions and NextGen and 
other safety features.
    So, with that as a statement, if anybody wants to comment, 
I would appreciate it. Mr. Scovel, do you have a thought?
    Mr. Scovel. I do not, sir. The topic is really beyond the 
purview of my office, and we are happy to leave it within the 
sound judgment of the Congress.
    Mr. Costello. I think the gentleman from Tennessee has 
sufficiently made his point on the issue. I don't think you are 
going to get a comment out of any one of the witnesses here, 
but your point is well taken and noted.
    Mr. Cohen. Thank you, Mr. Chairman. I appreciate your 
recognizing me because I have a meeting in the Tennessee 
delegation, and I absolutely, positively wanted to be here for 
this particular moment. Thank you.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Arkansas, Mr. Boswell.
    Mr. Boozman. You have forgotten my name.
    Mr. Costello. Or Mr. Boozman. I just had a conversation 
with Mr. Boswell. Mr. Boozman.
    And let me remind Members that we have 14 more witnesses to 
hear from. So I would ask Members to stay within the five-
minute time limit.
    The Chair now recognizes the gentleman from Arkansas.
    Mr. Boozman. Thank you, Mr. Chairman. I will cooperate even 
though you forgot my name.
    Thank you all for being here, and we appreciate the 
testimony.
    Dr. Dillingham, EAS is an important entity in many of our 
districts throughout the Country, many Members of Congress. Can 
you give us some options and alternatives that perhaps Congress 
might explore to enhance or supplement EAS?
    Mr. Dillingham. Thank you, Mr. Boozman.
    We currently have a study underway for this Subcommittee 
that looks at those exact questions. What we can say at this 
early stage is that clearly looking at the criteria and 
requirements associated with EAS is well overdue. Since the 
program was started some 30 years ago, there have not been 
major changes or adjustments in the program in spite of changes 
in population, demography, in spite of changes in the aviation 
industry.
    I think part of what we are going to try and report out is 
not only how to enhance EAS but also options that will provide 
the sort of connectivity for small and rural communities to 
that national transportation network. And it may be rail, and 
it may be bus or other surface things, but we propose to report 
those options to the Committee as soon as we are finished 
analyzing the data.
    Mr. Boozman. Thank you very much, sir.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Yes, thank you, Mr. Chairman, for having 
this meeting and welcome back to all of you of seeing you on 
our new year and new session.
    I have two very quick questions. One, I want to build upon 
the Chairman regarding air traffic controllers.
    I notice, Ms. LoBue, that in your very extensive testimony 
it is only until the last paragraph do you talk about air 
traffic controllers.
    And, Mr. Dillingham, in your presentation, you talk about 
that you agree that they are somewhat on track.
    However, all you got to do is come to my State, and I am 
sure you have read the headlines of both of my Senators. We are 
extremely concerned of what is happening with air traffic 
controllers. So I would like to know where are we here because 
your documentation says we are on track, things are going fine, 
yet in our communities, as the Chairman has shared as well, we 
have a lot of inexperienced people in there where it is a 
disaster waiting to happen?
    Essentially, the recommendation I believe from Mr. 
Dillingham's report is not only hiring, but what are you doing 
to resolve the labor conflict which I think has been going on 
for several years and what is the Secretary's commitment to 
resolving that conflict?
    Because we are projecting what is going to happen of hiring 
people of seven years, but I believe if we continue to 
disrespect working people and not resolve the contract issues, 
you may find that the pattern is not at the same. So what are 
we going to do to address that?
    Ms. LoBue. If I could.
    Ms. Richardson. Please.
    Ms. LoBue. The Secretary, the new Secretary, Mr. LaHood, 
has committed that with his first hire, a new FAA 
Administrator, one of the things he is going to have him tackle 
is the workforce issues. He is looking for a person that will 
be willing to, and able to, work with labor and get some of 
these issues behind us. I think we have that commitment from 
the Secretary, and I believe the Chairman has mentioned that we 
should look forward to that in the very near future.
    That will be one of the items tackled by this 
Administration pretty quickly.
    As to the concern about the proportion of trainees versus 
experienced controllers, that is something obviously that we 
have concerns about. We do have a lot of controllers who we are 
hiring. We are following the plan, but there are in fact places 
that we understand the ratio of trainees is higher than we 
would like. We are actively keeping an eye on those, and we 
have processes in place to get those controllers checked out 
and to work through some of the experience issues on a more 
effective and faster way.
    So I can tell you that we understand the problem and we are 
working it, although we do understand there will be some 
transition issues as we move forward.
    Ms. Richardson. Okay. In the sense of time that the 
Chairman has said, could you please forward to the Committee a 
report, I would say, on your major airports? I know LAX has to 
be top on the list.
    Not what we are preparing and we are working on but what 
specifically is happening because it is of great concern. Both 
of the Senators in my State have expressed the concern, and it 
is just not to our satisfaction at this point.
    I would also urge the Secretary, and I hope to meet with 
him soon, and I am sure our Chairman will share the thoughts of 
this Committee. But resolving that labor agreement has to be a 
top priority, not the last paragraph in your report because I 
believe it hinges upon many of the other problems that we have.
    Finally, I wanted to talk about noise mitigation. In 
addition to LAX, I have the Long Beach Airport in my district.
    Mr. Dillingham, you talked about that local government 
decisions that allow communities to expand near airports may, 
however, erode some of the gains in these reductions of noise. 
The FAA has issued guidance that discourages incompatible land 
uses such as residences, schools, hospitals and in areas with 
significant noise, aviation noise.
    In my area, we just, when I was on the council there, 
approved a major project of over 2,000 homes to go right up 
under the airport, the plane of landing. And so, my question is 
what would you advise to Members on Committees?
    This isn't saying don't build any more. But for those of us 
who are there, how can we take advantage of other pilot 
programs or how could you recommend better addressing it for 
the neighborhoods that are clearly along those paths?
    Mr. Dillingham. Ms. Richardson, as you have said, land use 
is strictly a local jurisdiction matter, and what FAA has done 
is there is a Part 150 program that allows for noise mitigation 
to try and mitigate some of the noise where you have this 
close-up usage of land.
    Also, we are currently doing work for this Committee, and 
LAX is a big part of it. We are doing a study looking to see 
what airports have been doing to mitigate all kinds of 
environmental issues, noise and emissions. We are hoping to 
bring to the Committee some answers and options that we have 
learned from a national study of airports, and hopefully that 
will be of some help in the LAX area.
    Ms. Richardson. If you would consider my area as evaluating 
as you move forward, I would appreciate it.
    Mr. Dillingham. Yes, ma'am.
    Ms. Richardson. Thank you, Mr. Chairman. I have extended my 
time.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, but I just arrived due 
to a delay, and I don't feel qualified to ask a question of 
this August panel.
    Mr. Costello. Would you like to yield your time to Mr. 
Dent?
    Mr. Ehlers. I would be happy to yield my time to Mr. Dent.
    Mr. Dent. Thank you, Mr. Ehlers, for yielding.
    My question to you is this: What benefits have been 
achieved by moving the Joint Planning and Development Office 
within the bureaucracy of the Air Traffic Organization, Ms. 
LoBue?
    Ms. LoBue. That move was made to better work what we 
generally call ``stovepipes'' and work some of the horizontal 
integration in the Agency. So the point was to have those 
things that the JPDO had done work on that would qualify in the 
short and the mid-term be put into implementation and worked 
immediately. Those things in the longer term, JPDO is still 
actively working and has the outreach and has the 
responsibility to coordinate with all the other agencies.
    Mr. Dent. Thank you.
    Now what is the biggest safety priority for the Agency?
    Ms. LoBue. I don't know that I am qualified to offer a 
single safety priority. We have many.
    Mr. Dent. Okay. With the downturn in the economy too, it 
seems to me that Federal jobs may look better than ever for 
many people. Should this help the FAA's recruitment of highly 
qualified people with systems engineering and contract 
management expertise?
    Ms. LoBue. I think we believe that it will. I think we 
remain concerned that across all technical industries, that 
there is a shortage. But I think the economic downturn should 
help us, yes.
    Mr. Dent. I guess my final question I have for you then is 
why does the FAA not keep any safety data on air ambulances, 
cargo aircraft and general aviation?
    Ms. LoBue. I am not qualified to answer that, sir, but I 
can get someone who is to come up and brief you.
    Mr. Dent. I appreciate that.
    I will yield back my time to Mr. Ehlers.
    Mr. Ehlers. No one seems to be seeking time on our side, so 
I will yield back, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman.
    I want to first thank the panel and direct my question to 
Inspector General Scovel.
    In a report that came out last April for DOT, you stated 
that fewer veteran controllers were transferring from lower 
level, less complicated facilities to higher level, busier 
locations. The impact has been to put less experienced 
controllers into situations they may not be as ready for as 
some of their counterparts. Is that still the case nearly a 
year later and are there any updated data that we could see 
regarding that?
    Mr. Scovel. Thank you, Mr. Carnahan.
    We finished our report on air traffic controller facility 
level training as of the end of fiscal year 2008. So my data 
are current as of September 30, 2008.
    At that point, we had determined that fewer veteran 
controllers than FAA had hoped were indeed taking up the Agency 
on its offer to move them, with a bonus, to facilities where 
veterans were needed.
    As a result, controllers in training were found in 
increasing numbers at a number of facilities across the 
Country. This is a concern both for the Agency and for my 
office because, of course, controllers in training require much 
closer supervision and are not qualified to operate at all 
positions across the facility.
    Mr. Carnahan. What role has the Agency's contract had on 
this drop in incentives for the more experienced controllers to 
move up the ranks to these busier facilities?
    Mr. Scovel. I am not aware that our audit covered that 
particular question. When you talk about the contract, you are 
talking about the labor contract between the Agency and NATCA, 
sir?
    Mr. Carnahan. Yes.
    Mr. Scovel. Right. We did not address that.
    What we attempted to address, at least in part, was whether 
the absence of a full contract might be leading to more 
retirements on the part of veteran controllers.
    Mr. Carnahan. And what were your findings in that regard?
    Mr. Scovel. We found certainly that the absence of a full 
contract was a significant morale issue. However, we could not 
identify the absence of a contract as, in most cases, the sole 
driving factor leading an individual to decide to retire. There 
were just too many factors, both personal and professional, 
that were leading veteran controllers to retire.
    Perhaps in some cases the absence of a contract was one of 
those factors, but it was expressed more generally in terms of 
the morale of the workforce.
    Mr. Carnahan. Thank you.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Kansas, Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much. I appreciate 
the opportunity to hear these witnesses read their testimony in 
this case and hear the next panel.
    The economic downturn, Ms. LoBue, what is the current state 
of the Aviation Trust Fund and its effect upon the FAA's 
budget?
    Ms. LoBue. Right now, the Trust Fund for the end of 2009, 
and this goes back to the mid-term projections we did last 
July, we project that Trust Fund receipts will be $12.2 billion 
at the end of 2009 and $13.1 billion in 2010. This says 
basically that for the cash balance, there is not a problem 
right now.
    We are concerned about the low uncommitted balance which 
shows a mismatch of receipts and spending because, as we have 
all seen, traffic continues to trend downward as much as 
perhaps 10 percent. So that is an issue that we will have to 
look at.
    Mr. Moran. When you say the cash balances are not a problem 
right now, how would you define right now? What time frame?
    Are there expectations? What does your crystal ball 
foretell?
    Ms. LoBue. At the end of 2009, we are expecting a $9.1 
billion cash balance.
    Obviously, all of these numbers will be updated as the new 
Administration comes forward with its budget request. I believe 
that is at the end of February. So they would have, I think, in 
that budget request much more articulation of how they see the 
problem.
    Mr. Moran. Is there an understanding at the FAA what the 
Administration's plans are to fill the long vacant position of 
Administrator?
    Ms. LoBue. The Secretary has met both with the FAA 
executives and has had a couple of town hall meetings open to 
all FAA staff and reiterated several times that one of his 
highest priorities is getting an Administrator who will both be 
able to tackle NextGen and be able to work through the 
workforce issues that we have seen.
    I understand from the Chairman that in fact they have 
identified someone and are hoping to get that person on soon.
    Mr. Moran. That is encouraging. It has been discouraging 
for the amount of time that the position has been vacant, and I 
would just publicly encourage the Secretary, the Administration 
to actively engage in finding a leader at the Federal Aviation 
Administration.
    I thank the Chairman and yield back my time.
    Mr. Costello. I thank the gentleman and just would comment 
that in a recent meeting with the Secretary and others the 
Administration has identified someone that they are speaking to 
right now. The Administration has only been in office 21 days. 
So it seems to me like it is pretty fast action and that they 
are moving forward.
    We hope that the person is appointed and moves through the 
process quickly. We think it is important for NextGen and a 
number of the other programs.
    Mr. Moran. If the Chairman would yield, I did not mean to 
infer that 21 days was necessarily a long period of time, but 
it has been a long time since we have had the position 
occupied. Thank you.
    Mr. Costello. The Chair now recognizes the gentleman from 
Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I know we have a 
long hearing today, so I will work on keeping this short.
    I want to thank Chairman Costello and Ranking Member Petri 
for their work in putting together this bill last year and also 
working with Chairman Oberstar and Ranking Member Mica.
    There are a couple of things that I had worked with the 
Chairmen and Ranking Members, getting the provision legislation 
to continue and enhance R&D for avgas alternatives, which I 
think is important, as well as the provision that would 
establish a new FAA center of excellence focused on alternative 
jet fuel research.
    So I thank the Chairman for including this in the bill that 
we have before us now and that we are moving very quickly on 
this. I think it is very important that we move quickly, and 
hopefully the Senate will move this time on the FAA 
reauthorization.
    So, in order to keep this short for the rest of the 
witnesses, I just wanted to ask one question right now of Ms. 
LoBue about Chicago Midway International Airport which is in my 
district. It has been important to me, and I have been working 
to increase the safety and efficiency of the airport and 
working with the FAA on this.
    I am not sure what you can provide for me right, but I 
certainly would like to get further elaboration on what 
measures the FAA is taking right now to ensure the safety and 
efficiency at Midway Airport remain a priority because this is 
very important to, of course, everyone who uses the airport and 
certainly the people who live in the vicinity of the airport.
    Ms. LoBue. Are you talking about while this privatization 
effort is going on?
    Mr. Lipinski. Yes.
    Ms. LoBue. So, as we speak, nothing has changed.
    We have an applicant under the privatization pilot program. 
FAA has not yet approved that. We are still awaiting some of 
the financial documents and some of the exact safety assurances 
and workings that you are talking about. So, when we get that 
from the city, we will proceed as soon as we can.
    Mr. Lipinski. As we go through this, whether or not the 
airport is leased, is there anything specific, anything more 
that the FAA is looking at right now?
    I know that in the last few years there have been additions 
at the end of the runways for arrestor beds and was wondering 
where we are look at moving forward with anymore safety 
improvements at Midway Airport?
    Ms. LoBue. I would have to have someone get back to you 
with the specifics for Midway and what they are doing there. I 
am not familiar myself, but we can do that.
    Mr. Lipinski. I appreciate that and appreciate working with 
the FAA and working with the new Administrator on making sure 
that all of our airports, but certainly, also importantly, 
Midway Airport and O'Hare Airport continue to be vital if we 
improve the safety and work on improving the efficiency of 
those airports.
    So, with that, I will yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Well, thank you very much, Chairman. I thank 
you and Mr. Petri for moving ahead quickly on this 
reauthorization. It is the highest priority for us after the 
stimulus.
    The stimulus may need a lot more work than the aviation 
bill. I don't know.
    Ms. LoBue, runway status lights program, I am not familiar 
with that. What do you mean by runway status lights?
    Ms. LoBue. As part of our Runway Safety Call to Action 
program, we have put in place runway status lights. I believe 
it is eligible for AIP funding, and it is one of a number of 
efforts to improve visibility and make sure that----
    Mr. Oberstar. What do you mean by status lights? That is 
one I want to understand, what you mean by status lights.
    Ms. LoBue. It goes to the status of whether the particular 
runway is occupied, not open, closed. That is what it refers 
to, the status of the runway itself.
    For instance, we had the instance where a crew pulled onto 
an unused runway, and that was inappropriate. Now that would be 
marked specifically, so that they could see from these lights 
that that was not an appropriate place to go.
    Mr. Dillingham. Mr. Chairman?
    Mr. Oberstar. Is this a program or initiative you are 
instituting at all airports, only the major airports or more 
critical airports or what?
    Ms. LoBue. I would have to get back to you on more of the 
specifics of the program. My understanding is that there is a 
program to put them in. I believe by 2011, the top 22 airports 
will all have them.
    Mr. Oberstar. Dr. Dillingham, you were going to comment?
    Mr. Dillingham. I was just going to say that basically they 
work like stop lights, so that the pilot can tell it is red, 
sort of red and green. If it is red, it is a visible sign that 
you shouldn't go onto that runway. So that is, essentially, 
runway status lights.
    And FAA has a program, as Ms. LoBue said, that they have 
already started. I think they have been installed in something 
greater than 20 airports at this point, and I think the idea is 
that eventually all of the airports will have that kind of 
safety or at least certainly the major airports, the OEP 
airports and the other.
    Mr. Oberstar. We certainly need that. That is the first 
time I have heard of this initiative, not that I have been 
following with as much diligence as I used to do.
    But I know that further on in Ms. LoBue's testimony she 
discusses increased runway safety training and awareness of 
pilots and air traffic controllers and vehicles.
    I see an increasing number of vehicular traffic on the air 
side of airports, and it really troubles me that we have so 
much movement in that space. I am really concerned we are going 
to have an on-the-ground incident. I know we do have some 
lesser ones, but a major incursion that would result in 
aircraft damage, injury or even fatality.
    So describe this training and the frequency of which it is 
occurring and the intensity and the type of training.
    Ms. LoBue. FAA has had a pretty intensive program to try 
and tackle runway incursions over the last year and a half. 
Former Administrator Marion Blakey did a Runway Call to Action 
in which we talked with both the major carriers and ALPA, as 
well as the major airports on what were the types of things we 
could do to bring the number of runway incursions down because 
I think we also believe that that is one of the most important 
areas that we look at in safety.
    As of late in 2008, we instituted a Runway Safety Council 
which is co-chaired by ALPA to continue to look at the types of 
training, et cetera, that we can do.
    I would have to get someone to come and give you a briefing 
with more specificity on exactly all the training we have been 
doing. But in fact we went out with guidance to the airlines on 
runway safety training, and particularly on the runway safety 
lights, all the major carriers have done training of their 
workforces over the last year.
    Mr. Oberstar. Thank you. I will take you up on that offer 
and won't delay any further with questions.
    This is a vitally important hearing, all the witnesses and 
all the organizations in one shot at this. We did this bill 
last year or two years ago actually, a year and a half ago. We 
are now polishing for readiness for markup to the House floor 
and on a tough time line to get this bill through the House.
    Hopefully, the other body gets the message and gets off 
their delaying tactics that they have done for the last few 
years and move a bill through because the authorization runs 
out at the end of next month.
    And we are dead serious about getting this bill through. So 
anybody who has any questions, issues, raise now or forever 
keep your peace.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Chairman Oberstar. Well said.
    We thank all three of you for being here today and offering 
your testimony and answering our questions.
    The Chair now would ask the next panel of witnesses to come 
forward. I will make the introductions while you are finding 
your chair: Mr. Greg Principato, who is the Airports Council 
International-North America President; Mr. James Elwood, 
Airport Director of Aspen/Pitkin County Airport; Mr. James May, 
the President and CEO of the Air Transport Association; Mr. Ed 
Bolen, the President and CEO, National Business Aviation 
Association; Mr. Roger Cohen, President of the Regional Airline 
Association; Mr. Craig Fuller, President, Aircraft Owners and 
Pilots Association; Mr. Clayton Jones who is Chairman, 
President and CEO of Rockwell Collins.
    We would ask all of you to be seated.
    As you heard me announce at the beginning of the hearing, 
we have all of your statements. They will be submitted in their 
entirety in the record. We would ask that you summarize your 
testimony in five minutes or less which will give Members the 
opportunity to ask questions.
    And we will lead off with Mr. Principato.

 TESTIMONY OF GREGORY PRINCIPATO, PRESIDENT, AIRPORTS COUNCIL 
 INTERNATIONAL-NORTH AMERICA; JAMES P. ELWOOD, A.A.E., AIRPORT 
DIRECTOR, ASPEN/PITKIN COUNTY AIRPORT; JAMES C. MAY, PRESIDENT 
  AND CEO, AIR TRANSPORT ASSOCIATION; ED BOLEN, PRESIDENT AND 
   CEO, NATIONAL BUSINESS AVIATION ASSOCIATION; ROGER COHEN, 
    PRESIDENT, REGIONAL AIRLINE ASSOCIATION; CRAIG FULLER, 
PRESIDENT, AIRCRAFT OWNERS AND PILOTS ASSOCIATION; AND CLAYTON 
    M. JONES, CHAIRMAN, PRESIDENT AND CEO, ROCKWELL COLLINS

    Mr. Principato. Thank you for allowing Airports Council 
International-North America the opportunity to participate in 
this important hearing, Mr. Chairman.
    Let me start by thanking you and the Subcommittee for your 
support of airports in H.R. 915. Your assistance in providing 
tools to improve our infrastructure while creating thousands of 
jobs highlights the important role of airports in our Nation's 
transportation network.
    We also appreciate your continued recognition of the 
success of the Airport Improvement Program in the FAA 
Reauthorization Act of 2009. Whether one plane or a hundred use 
an airport in a given day, we need to maintain our 
infrastructure to provide safe and secure facilities for the 
traveling public.
    Under this Committee's leadership, airports were given a 
financial tool that has proved to be a model for Federal-local 
partnerships and a lifeline for airport finance, the Passenger 
Facility Charge. By granting airports the ability to generate 
local funding through the PFC user fee, all who use the system 
have a voice in infrastructure development in consultation with 
the FAA. This financing tool has allowed local communities to 
determine needs and map out a plan for improvements and 
development at the airport in coordination with the airport 
users.
    ACI-North America strongly supports an increase in the 
ceiling of this local user fee to at least $7.50 with future 
indexes to match construction cost inflation.
    The purchasing power of the PFC has been greatly diminished 
by skyrocketing construction costs. The current maximum PFC of 
$4.50 is worth only $2.46 today. Fully adjusting the PFC to 
account for construction cost inflation would place the fee 
this year at $8.33.
    Without your continued support of increasing the PFC, 
airports will not have the ability to keep up with the 
inflationary cost of construction and provide facilities that 
meet passenger demand.
    History has shown that airports carefully evaluate the need 
for infrastructure projects. History has also shown that if you 
wait until your infrastructure is inadequate, you have waited 
too long. Traffic may be down now, but we did not have the 
infrastructure to meet demand just last summer.
    Can anyone remember the last time we had enough 
infrastructure to serve our passengers?
    How can we expect to prevent passenger delays and 
inconvenience when passenger traffic returns?
    ACI-North America, in its just completed capital needs 
survey, found that airports, both commercial and general 
aviation, have $94.4 billion in total projects over the next 5 
years that are considered essential by the airport and airport 
users to meet forecasted passenger and cargo growth. Not 
surprisingly, over half of these projects are at large hub 
airports that continue to experience congestion and flight 
delays.
    And, yes, our survey found that many airports of all sizes 
have delayed or cancelled the construction of billions of 
dollars of projects. Even so, the needs are great and costs are 
rising.
    We expect the PFC to play a more prominent role in airport 
finance as trust fund revenue declines from reduced traffic and 
from the new a la carte ticket pricing system embraced by most 
U.S. airlines since these airline fees are not subject to the 
ticket tax.
    It is ironic that the airlines continue to not only wrongly 
label the PFC user fee a tax but fail to mention that they have 
received $87 million in fiscal year 2007 to collect and remit 
it.
    It is amusing, frankly, that airlines claim the increase in 
the PFC user fee proposed by this Subcommittee last Congress 
will ultimately reduce passenger traffic when the a la carte 
pricing imposes fees that greatly exceed the PFC for services 
from checking a bag to making a seat reservation to using a 
pillow.
    Thank you also for your support as airports work to reduce 
our environmental footprint, reduce emissions and improve 
energy efficiency. The environmental provisions support by ACI 
in this bill are highlighted in my written testimony.
    Additionally, we commend the Committee for proposing 
critical funding for important air service programs including 
SCASD and EAS. We are especially grateful for your efforts to 
authorize a significant increase in SCASD as the program has 
helped small communities enhance their air service on a self-
sufficient long-term basis.
    In addition, my written testimony addresses the role 
airports would like to play in this Committee's continued work 
on NextGen, an issue on which I have personally worked for 16 
years now.
    One final note, we remain very concerned about proposals to 
mandate specific airport rescue and firefighting standards. In 
December, we conducted a survey of our Members on how much it 
would cost to comply with the proposed NFPA standards. We found 
the capital cost for compliance would average $6.5 million and 
annual operating costs would add $2.5 million, forcing many 
smaller airports to consider closing down.
    The FAA Aviation Rulemaking Advisory Committee, which 
included airports, firefighters and other stakeholders, 
prepared a report on the proposed ARFF requirements and has 
recommended a rulemaking on many of these critical issues. We 
support initiating the rulemaking process to carefully evaluate 
the costs and benefits of any change in the regulation.
    And with that, I will conclude and thank you for inviting 
me here, and I look forward to working with you on getting this 
bill passed.
    Mr. Costello. The Chair thanks the gentleman for your 
testimony and now recognizes Mr. Elwood.
    Mr. Elwood. Chairman Costello, Ranking Member Petri, 
Members of the Aviation Subcommittee, thank you for inviting me 
to participate in this hearing on FAA reauthorization.
    My message today is very simple. Airports deeply appreciate 
the good work that this Committee did on an FAA reauthorization 
in the last Congress. We are particularly grateful that the 
previous bill and the legislation introduced earlier this week 
would raise the PFC cap to $7.00.
    We hope this Committee will guide the multi-year FAA bill 
through Congress early this year that raises the PFC cap, 
increases AIP funding and helps small communities.
    The past year has been a difficult one for the aviation 
industry. Oil prices skyrocketed to nearly $150 per barrel, and 
airlines responded by reducing capacity throughout the system. 
The declining economy has also been taking its toll.
    Despite this temporary downturn, our aviation system is 
expected to rebound again as it did after 9/11. Enplanements 
are expected to increase from 765 million in 2007 to more than 
1 billion in the next 10 years.
    In November, we saw new runways open here in Washington as 
well as Chicago and Seattle. Airports don't build those 
improvements and increase capacity overnight. As a matter of 
fact, Seattle started planning that capacity increase 
approximately 20 years ago.
    While airports prepare for the future, they are squeezed by 
increasing construction costs. Costs have increased 
approximately 27 percent in the last 5 years, eroding the value 
of PFCs and AIP.
    Airports are grateful that the new reauthorization bill 
calls for raising the PFC cap to $7.00 and urge this Committee 
to consider raising it to $7.50. That would be almost enough to 
offset the impact of the construction cost inflation in 2008.
    To prevent erosion, we also ask you to index the PFCs to 
the construction cost index.
    AIP is another important source of funding for airports of 
all sizes. Airports are also pleased that the new bill would 
increase AIP funding by $100 million per year.
    And regarding small airports that rely so heavily on Small 
Community Air Service and Essential Air Service programs, we 
appreciate your continued support of these critical programs 
and your proposals to reform EAS.
    Mr. Chairman, safety is always the most important 
consideration of airports across this Country. The proposal by 
the International Association of Fire Fighters is very onerous 
and is difficult for airports to manage.
    At my small airport, we have 26 employees who do virtually 
everything on the airport, from maintenance at facilities to 
customer service, the entire gamut. Of those 26 employees, 8 of 
those are firefighters. The proposal to increase us to NFPA 
standards would require us to hire an additional 19 employees 
to accomplish that task.
    When I speak to my colleagues around the Country about what 
this proposal might do to impact their operation, it is 
substantial. And it is a real risk that we will lose commercial 
air service at some airports in this country because they 
simply cannot pass along the additional costs that these 
proposals might incur onto the airlines. It would make their 
routes unprofitable, and they would leave our communities.
    So I hope that the Members of this Committee will work with 
us to find an acceptable solution as we move forward.
    In closing, I would like to thank the Committee again, 
Chairman Costello, Ranking Member Petri and Members of the 
Aviation Subcommittee for inviting me to testify. I look 
forward to working with you on this FAA reauthorization and a 
quick passage through both sides of the Capitol and on to the 
President.
    Mr. Costello. We thank you for your testimony, and the 
Chair now recognizes Mr. May.
    Mr. May. Thank you, Mr. Chairman. We appreciate the 
opportunity to appear today, and also it is a pleasure to be 
here with my esteemed colleagues.
    Unlike last time around, we are really on the same page on 
a number of issues. We know that continuing to play the blame 
game is not going to get us very far, and we have listened to 
our new President and agree that it is time for change.
    All of us--commercial, business, general aviation--are 100 
percent committed to working with you, the Administration and, 
most importantly I think, each other to reach our mutual goal 
which is reauthorization of FAA's program and funding to ensure 
ATC modernization will be done early, will be done right and in 
a way that transforms air travel in this Country and keeps the 
U.S. competitive on the world stage.
    If we do it right, modernization will allow planes to fly 
more direct, efficient routes, significantly reducing fuel burn 
and CO2 emissions, reduce congestion, open up access, improve 
safety and security through precise tracking on the runway as 
well as in the air, reduce flight delays and inconvenience to 
passengers and ensure the United States remains a global leader 
in safety, security and environment.
    We realize it is necessary to put, however, the FAA 
reauthorization in context. U.S. and world economies are in 
crisis. Credit has evaporated. People are spending less. 
Consumer confidence is at a record low point. That means travel 
is down and down significantly.
    President Obama and others are championing and $790 
stimulus package, a dramatic, unprecedented pressure on the 
overall Federal budget. Massive infrastructure enhancements 
from highways to the internet are in play.
    This Committee knows that modernization of the Nation's air 
transportation network cannot wait. It is the only certain way 
to achieve the environmental, commercial, customer service 
improvements and a competitive boost to our overall economy 
that we want and the Nation demands.
    The Committee also knows the current plan for NextGen 
deployment is woefully underfunded in our view and far, far too 
slow. In this regard, I feel compelled to share with the 
Committee our disappointment, quite frankly, with the missed 
opportunity in the stimulus package to jumpstart NextGen, turn 
it into NowGen, saving or creating 77,000 jobs, reducing 
greenhouse gas emissions, reducing passengers' delays, and it 
would have been a step that truly would have been 
transformational to our economy.
    So what is different today from the last time we were here?
    First, as I mentioned earlier, the stakeholders are the 
same, on the same page as to what needs to be done with NextGen 
or NowGen which is accelerate development of RNP, RNAV, ADS-B 
and data communication, offer aircraft equipage incentives--and 
we appreciate the endorsement from GAO on that point, focus FAA 
and operator efforts on areas of the Country where we get the 
most bang for the buck.
    Second, preliminary data and common sense tells us that 
trust fund revenues are not going to be what we expected. I 
brought a chart along that is on the screen. They are going to 
be between a billion and a billion and a half less this year 
and going forward.
    Why? Because there is reduced capacity, fewer flights, 
lower fares, far less revenue coming in and over half a 
million, as an example, fewer flights this January than January 
a year ago.
    With substantial ongoing program commitments and less 
revenue coming in, some predict the trust fund balance will 
zero out by 2010. In addition, general fund contributions have 
dropped from an average of 38 percent to 16 percent over the 
last 25 years.
    So what is the same for decades and must change?
    Commercial airlines and their customers--this will come as 
no surprise to this Committee--contribute 90 percent of the 
trust fund revenue and impose less than 70 percent of the 
costs. We paid $11 billion in 2008 to the trust fund. There has 
to be a way to true up revenues with costs imposed.
    In addition, airlines and customers through PFCs, AIP rates 
and charges combined, all three, spend nearly $13 billion 
annually underwriting airport expenses. That means that 
airlines and customers spend over $20 billion on an annualized 
basis underwriting the trust fund and airports.
    I am not questioning the value of public need for our 
partners, the airports. But in this economic environment, the 
airports' continued push for higher PFC and AIP funds should be 
subjected to a reality check. Instead of asking for more money, 
airports should be doing what all Americans are doing today 
which is cutting costs, delaying investments and holding the 
line.
    This is a spending issue, not a funding issue.
    To recap, we have an economic crisis, significantly 
declining trust fund revenues and so forth.
    Let's accept the President's challenge to look at things 
differently, look at innovative funding sources, bonding 
authority, look at a national infrastructure bank, eliminate 
AMTs which is what my friend, Mr. Principato, wants.
    And, finally, I think we want to make it known that we are 
happy to work together with this Committee to find new 
constructive solutions, but continuing to look to the airlines 
for more money is not an appropriate answer.
    Thank you.
    Mr. Costello. The Chair thanks you, Mr. May.
    Before recognizing Mr. Bolen, let me, on behalf of the 
Members of the Subcommittee, wish you a happy birthday and 
thank you for spending a good part of your birthday with us.
    The Chair now recognizes Mr. Bolen.
    Mr. Bolen. Well, thank you, Mr. Chairman. There is no place 
I would rather spend my birthday than right here with this 
Subcommittee.
    [Laughter.]
    Mr. Bolen. Mr. Chairman, it is an honor to be back 
representing the National Business Aviation Association.
    As everyone on this Committee well knows, business aviation 
is an FAA-defined term. It is the use of any general aviation 
aircraft for a business purpose.
    And business aviation is clearly an important part of the 
general aviation community. Business aviation is also an 
important engine for our Nation's economy and a vital link in 
our air transportation system.
    Business aviation is about jobs. Over 1.2 million jobs in 
the United States, good manufacturing jobs, service jobs, jobs 
that we can keep in the United States in the 21st Century.
    Business aviation is also about a lifeline to our Nation's 
small towns and rural communities. As this Committee knows, 
there have been a number of communities that have lost 
commercial airline service over the past year and a half. For 
those communities, business aviation has never been more 
important.
    Business aviation is about making our companies more 
productive, more nimble, helping them communicate and survive 
in a very harsh economic environment. As this Committee knows, 
business aviation operators are primarily small and mid-size 
companies. They need the benefits of business aviation to 
survive.
    It has already been discussed today that our economy is 
suffering. And when our economy suffers, business aviation 
suffers.
    Like commercial airlines, business aviation follows market 
cycles. So when the economy expands, our operations expand. 
When it contracts, we contract as well. Clearly, this recession 
is forcing a very painful contraction.
    Flight operations are down over 30 percent. General 
aviation manufacturing jobs are being lost. Pilot jobs are 
being lost. Service jobs are being lost. Fuelers are losing. 
Our general aviation airports are hurting as well. It is a very 
difficult time.
    Having said that, we continue to believe in the future. We 
know aviation will recover, our economy will return, and our 
air transportation system will be critically challenged as it 
moves forward. That is why we have always supported moving 
forward with NextGen.
    General aviation is not only supporting NextGen with 
rhetoric. We are supporting it with dollars.
    We commend this Subcommittee for the tremendous work it has 
done over a two-year process, immersing itself into the FAA 
funding issue, identifying the needs and the challenges and 
coming forward with a plan that we believe makes NextGen a 
reality.
    We also support the approach that the Senate brought 
forward to the Senate floor last spring. This is a process that 
builds on the general aviation fuel taxes and allows us to 
adjust those taxes to support NextGen. We continue to support 
this approach. We will not back away from it.
    We look forward to working with you on making NextGen a 
reality.
    Thank you, Mr. Chairman.
    Mr. Costello. We thank you.
    The Chair now recognizes Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman and Members of the 
Subcommittee.
    I am President of the Regional Airline Association. RAA 
represents the interests of more than 30 regional airlines and 
nearly 300 industry suppliers, and we want to thank you for 
this opportunity today.
    America's regional airlines have become a fundamental 
cornerstone of our air transportation industry and a critical 
part of the Nation's economy. Today, we carry 160 million 
passengers a year. That is more than one out of every five on a 
commercial airliner. We fly 40 percent of the Nation's 
passenger fleet and 50 percent--50 percent--one half of the 
scheduled flights.
    But most notably, regional airlines serve more than 600 
airports across the U.S. And in 476 of these communities, that 
is 75 percent, regional airlines provide the only scheduled 
service.
    As you all know, it was a very different aviation and 
economic landscape when we had the honor of testifying before 
you back in the Spring of 2007, but the principles that we 
outlined to you on behalf of our RAA's board of directors 
remain valid and may be even more critical today.
    First, most importantly, do no harm. Preserve the network 
of air service to small and medium-size communities. Today, 
most passengers are normally just one stop away from any point 
in the U.S. and many points across the globe.
    Two, transition quickly and efficiently to a modernized 
satellite-based national airspace system.
    Three, that funding for the system should reflect a more 
balanced splitting of the check, if you will, amongst all the 
users of the system.
    Four, restore the balance of the 1990 ANCA law under which 
airport fees would be spent primarily on expanding and 
improving the Nation's airways and airport infrastructure, 
runways and taxiways.
    And, five, and something near and dear to us at RAA, is 
fulfill the promise made by Congress under the 1978 
deregulation act that Essential Air Service communities would 
not fall off the airline map without adequate protections. On 
that point, we want to specifically thank you for proposing to 
raise the cap for EAS funding to $200 million, for addressing 
other EAS reforms. And on that point and your bill in great 
measure addresses these principles and it is why we supported 
and helped advance the measure to the Senate floor in the 
previous Congress.
    But that was then, and this is now, and we are in a 
different place. Last year's speculative, driven run-up in fuel 
costs and the tanking of the world economy have created a much 
tougher challenge.
    Just look at the numbers. Between December, 2006 and 
December, 2007, regional airlines gained a net gain of 77 new 
nonstop markets. But last year, regional airlines had to cut 
back, and there was a net loss of 243 nonstop regional markets. 
That was compared to a net loss of about 100 main line routes.
    In other words, communities served exclusively by regionals 
suffered flight cutbacks last year at more than twice the rate 
of the main line served airports.
    Even more troubling, some 31 airports lost all their 
scheduled service last year, potentially worsening the burden 
of an already overstressed and underfunded Essential Air 
Service program.
    But like those infomercial business gurus and my old high 
school football coach used to say, sometimes problems are just 
opportunities in disguise.
    These, hopefully, temporary setbacks, temporary cutbacks in 
flights have perhaps provided some breathing room, maybe a 
timeout from the headlines about flight delays so that we can 
make the kind of real progress towards NextGen that this 
Congress, the FAA and so many people in this room have been 
working towards for decades.
    Our Member regional airlines have much riding and already 
much invested in this effort. The hub and spoke networks that 
have provided the benefits of safe, seamless service to 
passengers from small and medium-size communities, regional 
airlines have become, through this network, the main providers 
at many of the Nation's business airports. We operate more than 
one half of the flights at O'Hare and Philadelphia, Dulles, 
Houston, Detroit, Minneapolis-St. Paul and about a third at 
places like Denver and JFK, LaGuardia and even Boston's Logan.
    This is why regional airlines have committed substantial 
resources to be the leaders in the transition to NextGen.
    Four RAA members are pioneers in installing electronic 
flight bags on their aircraft to help prevent the kind of 
runway incursions that you all were discussing earlier today at 
the busiest airports: SkyWest at LAX, Shuttle America and 
Piedmont at Philadelphia and New York and CommutAir in my home 
town of Cleveland.
    Another NextGen pioneer was Horizon Air, second airline in 
the Country approved for RNP approaches.
    DataCom, WASS, RNP, RNAV, ADS-B, EFB, the whole alphabet of 
modernizations, regional airlines have become essential parts 
of NextGen.
    Mr. Costello. Mr. Cohen, we would ask you to wrap it up.
    Mr. Cohen. Mr. Chairman, in conclusion, while flights and 
delays are down, flight cutbacks far more than to our liking 
and the reduction in delays much less than we prefer, the need 
for action is greater now than it was even two years ago. 
Towards that end, we look forward to working with you. Our 
member airlines look forward to working with you, all of 
Congress, your staff, the Administration, FAA to make it 
happen.
    Mr. Costello. We thank you for your testimony, and now the 
Chair recognizes Mr. Fuller.
    Mr. Fuller. Thank you, Mr. Chairman and Ranking Member 
Petri, Members of the Committee.
    My name is Craig Fuller. I am the President of the Aircraft 
Owners and Pilots Association. I have held that position now 
for just about six weeks.
    I have been a pilot, an active pilot for just about 42 
years. I have flown in the system from California to the East 
Coast.
    As some of you know, I came here in 1981 with a new 
administration. What is not so well known is I came here in a 
Cessna Cutlass and I now fly a Bonanza aircraft about 200, 220 
hours a year.
    I have been a member of AOPA since 1973. So the issues that 
you have dealt with are also very familiar to me.
    I want to start by taking note of something Jim May said 
because I do think it is important and impressive, that we are 
here today with you in agreement on the FAA reauthorization. 
There are members, important organizations in the aviation 
community that are also in agreement that could not be here 
today.
    But I think it is worth noting that we are unified, all 
believing from our unique perspectives that the FAA 
reauthorization needs to go forward. It needs to go forward for 
a four-year period to give certainty not only to the Agency but 
to give certainty to all of us who fly in the system, who 
invest in the system, from the airports to people throughout 
the aviation community. That four-year period is in fact vital.
    I also would mention I think the question was asked about 
delaying this or extending this for temporary periods of time. 
A four-year authorization really allows the Agency to spend 
money wisely. You get a better bargain today than you are going 
to get a year from now, two years from now, three years from 
now. So this four-year extension serves the interest of the 
aviation community very well.
    The bottom line for us--I know you are tight on time. The 
bottom line for us is we support the measure. We support the 
use of aviation fuel taxes as a means of providing support from 
our segment of the aviation community, and we do think that 
increase is something that our members will live with.
    We now have 416,000 members as of the end of January. It is 
a privilege for me to represent them here today. I look forward 
to representing them again here in the future.
    I look forward to your questions. Thank you.
    Mr. Petri. [Presiding.] Thank you.
    Mr. Jones.
    Mr. Jones. Thank you, Ranking Member Petri and Chairman 
Costello as he comes in the room. I want to thank you for 
inviting me to testify today not only on behalf of the 20,000 
employees of Rockwell Collins but also the member companies of 
ARSA, AIA and GAMA.
    As this Committee well knows, the civil aviation industry 
plays a critical role in the health of the domestic economy, 
employing nearly 11 million workers in all 50 States and 
contributing more than $1.2 trillion annually to the U.S. 
economy.
    Despite these laudable figures, these are challenging 
times, you have heard from the panel today. In order to adjust 
to the financial realities of today, companies have been forced 
to ground or liquidate business and commercial aircraft they 
can no longer afford.
    This sharp reduction in utilization coupled with a rapidly 
increasing inventory of used aircraft is further depressing 
already slumping demand for new planes. Subsequently, as 
aircraft order backlogs shrink, manufacturers of both general 
aviation and commercial aircraft and their suppliers have been 
forced to take painful steps and lay off thousands of 
hardworking employees from coast to coast.
    Now while this Committee is well aware of the benefits this 
industry providers, I respectfully request that you remind your 
colleagues of these benefits and ensure they avoid any 
legislation that would further damage this vital industry such 
as preventing corporate ownership of aircraft.
    Additionally, Mr. Chairman, smoldering beneath today's 
immediate economic crisis is a much longer-term challenge that 
everyone in this room is aware of, a challenge that has the 
potential to inflict significant future economic damage to the 
United States. Today, we are operating on an aviation 
infrastructure based on radars and controlled processes 
designed in the 1940s. We must advance from this 20th Century 
to a 21st Century system, taking advantage of the advances in 
information management, satellite-based flight tracking and 
navigation to yield the safety, efficiency and environmental 
sustainability benefits that we know NextGen will offer.
    Now, to be clear, NextGen is not a mere modernization 
program but rather a transformation program, one capable of 
accommodating the future growth while avoiding billions of 
dollars of lost productivity and unnecessary environmental 
impact.
    Regarding environmental impact, the civil aviation industry 
understand the importance of this issue and its potential 
impact on our future growth. While we have made great strides 
in minimizing the impact through our products and technology 
developments and operational practices, much more work remains 
to be done, and I think NextGen offers the promise of getting 
us closer to carbon neutrality.
    Now in order to accommodate projects that serve the public 
good like NextGen and that achieve the related congestion and 
environmental benefits, appropriations from the general fund 
should return to the levels of the 1990s when funding averaged 
29 percent per year. In hopes of returning to this sensible 
level of government funding, I believe it is reasonable and 
appropriate for Congress to increase the general fund share of 
FAA operations to 25 percent per year through the life of this 
pending legislation.
    With such an increase, Congress can then take the next bold 
step in aerospace modernization and authorize and appropriate 
$3 billion general fund dollars over the next 4 years to fund 
the equipage of Automatic Dependent Surveillance Broadcast or 
ADS-B. This funding would allow the vast majority of commercial 
and general aviation fleets to be equipped with this important 
technology at a far earlier date than would be achieve in the 
current time frame of 2020 by FAA rule.
    Finally, Mr. Chairman, I would like to stress the aviation 
industry's commitment to safety and security, particularly at 
our manufacturing and repair stations around the world. As you 
know, aviation is a global industry, and, as such, it requires 
an international network of safe and secure stations to repair 
and maintain aircraft.
    Although Section 304 of H.R. 2881 was, no doubt, designed 
to improve safety oversight of foreign repair stations, I 
believe it could ultimately undermine the very safety systems 
we are trying to improve.
    Mr. Chairman, thank you for inviting me to testify before 
your Committee.
    I look forward to passage of a long-term reauthorization 
bill that will provide critical direction from Congress along 
with a new FAA Administrator to focus attention on managing 
these challenges.
    But, to be clear, that responsibility is not on the 
shoulders of just one person and, clearly, Congress in the 
House and the Senate, but it also falls on the shoulders of 
industry. Consequently, I call on my industry partners to focus 
on the broader aspects of this legislation and recommit to work 
together for its safe passage.
    Thank you, Mr. Chairman. I would be glad to answer your 
questions.
    Mr. Costello. [Presiding.] Thank you, Mr. Jones.
    Mr. May, as we have discussed in the past, both in this 
hearing room and privately, to a great degree, the success of 
NextGen, though there is a lot of things that have to happen to 
make it successful but one is equipage, that the airplanes have 
to be equipped with the necessary equipment. Where is ATA and 
the airlines in working with the FAA regarding equipage of 
aircraft?
    Mr. May. Mr. Chairman, we are aggressively supporting 
accelerated equipage of aircraft. We have about half of our 
fleet that is RNAV equipped, not quite as much for RNP. We have 
some GPS in the aircraft. But we think that if there is a nexus 
between the ground operations for NextGen, which we would 
prefer to call NowGen, and the fleet it is going to rest on the 
equipage.
    So they have to finish getting the standards out, and then 
they have to do something that we are not satisfied they have 
done just yet, and that is give us the business case--and I am 
sure Mr. Jones would underscore this--for spending the kind of 
dollars that are necessary.
    We have to know that there will be reduced separation. We 
know that we have to be able to use that equipment, and FAA 
will permit closely spaced parallel operations, things of that 
sort to make the business case for us to spend that money.
    Ideally, I think the best way to do it is what we suggested 
be included in the stimulus package, which Mr. Jones just 
referred to and we all signed up to, which is a $4 billion 
investment in equipage across not just the civil fleet but GA, 
private aviation, the military and others so that we know we 
have the tools to be able to deploy this technology as 
aggressively as possible.
    Mr. Costello. The issue that Mr. Jones mentioned and you 
mentioned in your testimony, the general fund contribution to 
the trust fund as during the nineties was in the high 28, 29 
percent range. It is down to 16 percent now.
    Mr. May. That is correct.
    Mr. Costello. You have heard me say many times that we need 
a robust number from the general fund. Do you have a number in 
mind? In looking at, you put a chart up here earlier, what 
should the contribution from the general fund to the trust fund 
be?
    Mr. May. Mr. Jones used the number, 25 percent. I certainly 
wouldn't disagree with that.
    We recognize that the trust fund has a significantly 
declining balance. We recognize that the general fund is paying 
in less and less every year, and that contributes to the 
contretemps that we have had over user funding of the trust 
fund.
    I think the more general fund opportunities that we can 
address in the ATTF the better off we will all be. If it could 
be 30 percent, I would be all in favor of it.
    Mr. Costello. We look forward to receiving the budget from 
the new Administration and have been encouraging them to look 
very hard at increasing the number over what it is now.
    Mr. May. As do we.
    Mr. Costello. The Chair now recognizes the Ranking Member, 
Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    Obviously, with the growing economic insecurity around the 
world, there is ever to do everything we can to protect jobs 
and bring jobs back home to America and all that.
    In that connection, I wonder if Mr. Jones could address 
some provisions of this bill that probably are well intended, 
but then there is this law of unintended consequences. We try 
to bring jobs or do work here in the United States, other 
companies try to do the same, and the net result can be that we 
all lose or we shoot ourselves in the foot.
    We have had an agreement with the E.U. for many years of 
reciprocal basis. Has that tended to work toward our advantage? 
Is more work done here in the United States than in the E.U.?
    If they were to retaliate if we were to take the initiative 
in slowing that down or putting up barriers to that, would we 
gain jobs or lose jobs? How would that really work?
    Mr. Jones. Well, let me try to address that, Mr. Petri, 
because you raise a very good point that I referred to in my 
testimony.
    Today, there are about 1,200 repair stations in the United 
States that repair not only United States built aircraft but 
also E.U. aircraft that come in our space. So those are 1,200 
repair stations that have a lot of good, high quality jobs that 
are serving those aircraft. There are about 425 in Europe.
    And so, as you can see by just that ratio, if this 
legislation should precipitate trade barriers and a trade war 
and a retaliation by the Europeans, we stand to lose a far 
greater volume of work given the footprint that we have in the 
United States than we might gain if we were to gain extra work 
that we do in Europe.
    I think the other thing to point out relative to this 
legislation is that we are not opposed to inspections and to 
safety. That is not the issue at all. The issue is are the 
dollars spent and the amount of labor and manpower that FAA has 
to do these inspections available and will they be deployed in 
the right way?
    We may find that some repair stations only need the once a 
year inspection that is mandated today. Others may need more 
than that. And so, the risk-based approach that I believe FAA 
has strongly endorsed is one that we would endorse as well as a 
better bang for the buck to create the safety that we are both 
in favor of.
    Mr. Petri. Thank you, Mr. Chairman.
    I have another question for most of the panelists that I 
will submit for them to respond in writing, which really would 
be how you are doing and what steps you are taking to prepare 
for NextGen and the importance of us getting our act together 
to maximize the investment that you and your members or your 
associates are doing in this whole area.
    Mr. Costello. Thank you.
    The Chair now recognizes the gentleman from Iowa, Mr. 
Boswell.
    Mr. Boswell. Thank you, Mr. Chairman.
    It seemed like I maybe expected a little discussion about 
who is paying for what. But, Mr. Bolen, would you respond? The 
airlines claim that business aviation is not paying its fair 
share in the trust fund. How do you respond?
    Mr. Bolen. Well, the FAA's own numbers indicate that 
business aviation, which is part of the general aviation 
community, the entire general aviation community is currently 
paying about 8.5 percent of the revenues going into the trust 
fund.
    If general aviation were grounded tomorrow, I believe that 
the system may be 7 to 9 percent less expensive than it is 
today. That is based on a 1997 cost allocation study done by 
the FAA. So I think we are in the ballpark.
    I also would say that Mr. May referenced the FAA's cost 
allocation study, and, as this Subcommittee knows, questions 
have been raised about the methodology and some of the 
applications that were used in that. Cost allocation is 
certainly not an exact science, but reputable groups have 
raised concerns, and I think those should be explored.
    Mr. Boswell. Mr. Jones, do you think your proposal for us 
to raise to the level, historic level on the general fund, do 
you think you set your figure high enough?
    Mr. Jones. I am not exactly sure, sir. I think there are a 
lot of other inputs into the budget that probably I am not an 
expert to talk to, but 25 is a heck of a lot higher than 16, 
and it is a great place to start.
    I would supplement my comments and support what Mr. May 
said in that if you are looking at infrastructure and targeted 
incentives to try to create economic activity, I think that 
this proposal to put this increased funding, not only from the 
general fund but targeted toward the acceleration of NextGen 
which we are all in raging agreement on, is the right thing to 
do.
    I think it is intolerable to think that we will not have 
ADS-B built out to another 11 years from now, 2020, and we will 
be sitting here for many years, begrudging that fact. We have a 
moment with billions of dollars going into stimulus activity, 
and this would be targeted at a specific need.
    This would be temporary because, once equipped, that would 
go away. And, obviously, it is timely because we are ready to 
move.
    We believe that the ADS-B regulations will be ready at the 
end of this year at the latest, 2010, and with your 
encouragement I am sure the FAA could get them out.
    Then the industry would be ready to produce equipment 
within six to twelve months after that. So we have engineers 
and workers that would be ready to move on this if Congress can 
support that.
    Mr. Boswell. I am not so sure Congress can't support it. 
But I would guess this, Mr. Chairman, it is going to take all 
of these folks as well as us to try to make this point, 
understanding what the situation is and the economic side of 
it.
    I personally think, Mr. Chairman, and I would guess we are 
probably in agreement, that the whole Country benefits if we 
could get that done. It is an investment with a known return.
    Mr. Costello. Yes, sir.
    Mr. Boswell. And I believe that as well. So let's see what 
we can do.
    By the way, Mr. Jones, I have used some of your equipment 
probably more than anybody else in the room. I don't know. I am 
looking around. Maybe not, but likely. Possibly.
    But I am curious. How did you arrive in Washington today? 
How did you get here?
    Mr. Jones. Sir, I took a business aircraft into Washington, 
and I am pleased to say I have access to one because I couldn't 
be here had I not and acquit my other responsibilities.
    To give you just my own personal example of how that 
happens, I was in Florida this morning speaking at an investor 
conference with a number of our share owners which obviously 
are very important to our company, I am here this afternoon, 
and I am flying from here to Philadelphia for a board of 
directors meeting tonight. That would not have been possible 
had I not had access to a business aircraft.
    One other mention because this is a very topical issue 
right now, sir, as you know, in advance of this I had my flight 
department do a survey of how much I, as a CEO, use our 
aircraft. In total aircraft time flown, I use our aircraft 17 
percent of the time, 17.
    That means 83 percent of the time that that aircraft is 
flown, it is program managers, it is sales representatives, it 
is engineers going to our other locations around the United 
States providing us the business advantage we need that that 
aircraft affords us, especially--as you well know, sir, coming 
out of Cedar Rapids, Iowa--with the relatively limited 
connections we have and the time it takes to hub and spoke 
through the system.
    Now we use both, but having this as a capital tool for 
business is critical to our success. I would submit, sir, you, 
above all people, know how successful this company has been 
over the last few years.
    Mr. Boswell. We want you to continue to have success.
    Mr. Chairman, I guess we will have another round, and I 
have other questions.
    Those of us who believe in general aviation as well as 
believe in the airlines--don't misunderstand me--took a pretty 
bad rap with the automobile companies and that little testimony 
they had. The public out there needs to hear what Mr. Jones has 
said and what it means to the whole economy of what has been 
contributed by using these aircraft in a proper way.
    Thank you for your comment. I appreciate it.
    Mr. Jones. Thank you, sir.
    Mr. Costello. I thank the gentleman.
    I think maybe it is worth noting for Mr. Jones that you 
have arrived here today in a business aircraft, but Rockwell 
Collins is not asking for billions of dollars for a bailout 
either, are you?
    Mr. Jones. No, sir, and don't intend to either, sir.
    [Laughter.]
    Mr. Costello. The Chair now recognizes the distinguished 
Chairman of the Full Committee.
    Mr. Moran, do you have questions?
    Mr. Moran. I do.
    Mr. Oberstar. No. Go to Mr. Moran, please. Please go to Mr. 
Moran.
    Mr. Moran. Mr. Chairman, thank you very much.
    Mr. Elwood indicated about the value, as my colleague from 
Iowa is indicating about the value of general aviation.
    I come from a State in which we see it in both aspects. We 
are certainly a manufacturing State, and so jobs created is 
significant to us. But Kansas is a very rural State, and our 
ability to connect with the rest of the world is very much 
determined upon either commercial air service or upon general 
aviation.
    As we have seen, there has been this concern about the use 
of general aviation aircraft, and I would like to at least 
state for the record that many communities would not have a 
small business component, manufacturers and others who service 
the rest of the world. Businesses would make decisions about 
where they locate, in the absence of general aviation or 
regional service, in places that we all care about.
    And so, the state of the general aviation economy certainly 
matters to us in the most obvious way. It is jobs at home. But 
as a person who represents a very rural State, in the absence 
of our ability to connect, we would not have small business 
operating in our States. They would locate in larger 
communities where there is full commercial service.
    I wanted to explore the state of this economy.
    Mr. Jones, you outlined the difficulties that the aviation 
industry and its subcontractors are experiencing.
    We are debating a stimulus package and in many ways I think 
most of us wanted to focus that effort on construction, shovel-
ready projects, things that put people to work. But in the 
general aviation industry and its subcontractors, are there 
specific things that we could do that would stimulate or at 
least reduce the burden of the economy upon general aviation?
    I am thinking about you mentioned some regulatory changes, 
and I am also wondering about tax changes. We have used the tax 
code in the past in order to try to generate additional 
opportunities for people to purchase, repair and maintain 
aircraft.
    Any observations?
    Mr. Jones. Well, a couple I would have, sir.
    First, let me thank the Congress for what it did in 
including accelerated depreciation in the recent legislation. 
That does have a stimulative effect for all companies that are 
in the capital goods segment. I think that is a known and 
proven stimulus that you all passed after the 9/11 downturn and 
that we saw had a direct effect on stimulating aircraft 
purchases. I think that is one thing.
    Obviously, the other one I would say is including something 
to do with aviation in the stimulus. The one that I mentioned 
would put avionics manufacturers--obviously, I have a parochial 
interest in that--to work immediately equipping these aircraft, 
and it would help the airline industry too, as Mr. May said.
    The stumbling block to NextGen, make no mistake about it, 
is going to be aircraft equipage.
    And I think Mr. May said exactly the right thing. It is a 
cost-benefit analysis that has to be shown if we require them 
to spend the amount of money they will need. That is very 
precious in terms of cash for them on these equipments.
    So this stimulus would get us over that hump and then allow 
us to see the benefits of reducing secondary radars and 
accelerating the other aspects of NextGen.
    So I think those are the kinds of things that would 
stimulate this industry and keep these very well-paid, 
knowledge workers in place until the rest of the economy 
recovers.
    Mr. Moran. Thank you, sir.
    Mr. Fuller, I look forward to working with you in your new 
capacity. I appreciate our relationship in your previous.
    The FAA reauthorization bill requires the establishment of 
a number of registrations, certifications and related fees for 
services and activities provided by the FAA. Do you have a 
response as to whether they are satisfactory? Are they 
something that is livable or are we, once again, regulating and 
increasing the cost of business in an unsatisfactory manner?
    Mr. Fuller. Thank you for the question.
    We have seen the list. I am mindful of Mr. Oberstar's 
comment of speak now or forever hold your peace. I would say 
that it is a manageable list and there is nothing there that 
should prevent this legislation from going forward.
    I do have my medical requirement up this year. I do pay a 
physician for it, and I pay the cost of that medical, and one 
of those fees has gone from zero dollars to $42 which is a fee 
associated with that medical certificate.
    There are 600,000 pilots in the Country. All of us have to 
get medicals on an annual or twice, some every three years. 
That is generating an awful lot of revenue for filing medicals.
    I might say if there is any one of those on that list that 
we may take exception to, it would be going from zero dollars 
to $42 in a fee associated with that medical.
    Mr. Moran. Thank you very much.
    In the eight seconds I have left, I wanted to give Mr. 
Elwood or Mr. Cohen an opportunity to express any concerns that 
we ought to be aware of in regard to Essential Air Service.
    Again, I represent a State in which EAS is a significant 
component. Both of you have mentioned it. Anything that you 
would like to highlight?
    Mr. Cohen. Mr. Chairman and Mr. Moran, just to thank this 
Committee for its leadership primarily in recognizing that the 
communities, the airlines, the passengers, that there is really 
reform that is needed to be done as the previous panel even 
recognized. We really look forward to working with this 
Committee to get that right now. You have done the most 
important thing, show that you really have a commitment to 
fixing this program.
    Mr. Moran. Mr. Chairman, thank you.
    Mr. Costello. The Chair thanks you and recognizes the 
gentleman from Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Chairman, I want to associate myself with the remarks 
of the gentleman from Iowa, Mr. Boswell. I was very concerned, 
being a commercial pilot myself, when we had the outrage that 
we had about individuals flying into D.C. in their private 
aircraft.
    It concerns me a great deal when you have companies. I, 
obviously, don't represent Cessna. It is in Kansas. When they 
are laying off thousands of employees, that is huge to the 
aviation industry, and it affects everybody out there.
    It may not be my district where those thousands of 
employees are laid off, but I have companies in my district 
that supply Cessna and they supply Beech and they supply 
Raytheon. They supply everybody.
    And so, I very much appreciated the comments. I am glad you 
asked how Mr. Jones arrived because I was curious myself and, 
again, just very upset and wanted to express that because I 
think it is very misguided when we hear some of the comments 
that were made by folks, just literally demagogueing the issue 
of aviation which is so vitally important to our Nation and 
particularly our smaller communities.
    So, thank you.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Thank you very much, Mr. Chairman. I will 
necessarily be brief because I am going to have to go the 
meeting of the Democratic Caucus to hear the report of the 
committee of conference, the House Members of the committee of 
conference on the stimulus initiative, and see what they have 
created for us.
    Mr. Petri. And if it is enough.
    Mr. Oberstar. We will see. Our Committee has a very 
distinct interest in this stimulus initiative.
    Mr. Cohen, the Regional Airline Association has been a 
major partner in the Essential Air Service program which was 
crafted in this Committee room in 1978. My amendment was 
offered when I was sitting right down there in that second row. 
There were fewer Members on this Committee at the time.
    And I remember in concluding my argument in favor of the 
Essential Air Service as part of the deregulation act, that: 
Mr. Chairman, if this amendment isn't adopted, then there are 
communities in my district that are so remote that the only way 
to get there without air service is to be born there.
    [Laughter.]
    Mr. Oberstar. It was a much bigger laugh at that time 
because it was a much more serious issue.
    So this laughter subsided. The motion was put. The 
amendment passed.
    And then we have seen a whittling away of the funding and 
of the authority and of the application of EAS.
    So, in this legislation, we have included provisions that I 
think will substantially improve Essential Air Service 
particularly in this era of increasingly consolidation of 
airline operations and fewer airlines, fewer competitors.
    So we have increased to $200 million the amount authorized 
for EAS each year. I gather you are in accord with that?
    Mr. Cohen. Absolutely. I thank the Committee and your 
leadership on this, Mr. Chairman.
    Mr. Oberstar. And we authorize the Secretary to include 
financial incentives based on performance goals.
    Now the reason I have crafted that language is that we hear 
complaints from communities that are at the end of the spokes 
in the hub and spoke system, that they are getting short 
shrift. They are not getting the frequencies they want. They 
are not getting the service they want. They are getting a 
higher number of service cuts, delays or cancellations of 
flights. And, at the same time, the airline is getting the EAS 
subsidy.
    So we want better on-time performance. We want to reduce 
the number of cancellations. We want reasonable fares including 
joint fares from beyond the hub airport. Convenient 
connections, example: I have heard in a recent town meeting 
with airport authority directors and business persons of 
smaller businesses, not Rockwell Collins that have their own 
aircraft but who charter or who have maybe a KingAir, that, 
sure, they get up at 4:00 in the morning, drive an hour to the 
airport. They fly out of northern Minnesota, and then they wait 
at Minneapolis-St. Paul for four hours for the next connection. 
They don't mind getting up at 4:00 in the morning if their 6:30 
flight can connect with something in Minneapolis that is going 
to get them to their destination.
    These are business people. They don't have a lot of leisure 
time. They live way in remote Minnesota, but they are 
conducting a very viable business. Now some of these folks 
can't even time share on an aircraft.
    So I think that we ought to have some accountability. We 
are going to have the Government Accountability Office oversee 
the implementation of this EAS.
    Mr. Cohen, what do you think about that?
    Mr. Cohen. Mr. Chairman, I think the problems you describe 
really are the result of a lot of years of kind of squeezing 
this program down.
    And so, what has happened is that several of our EAS member 
airlines have gone out of business doing this. Getting some of 
the rules that have been put in place there have made it 
impossible for carriers to invest, to try and bring on the 
aircraft that are needed, to bring on the training, to invest 
in commitment to get people flying on those aircraft again, to 
get them back into the system. And it has been this kind of 
drip, drip, drip over those 30 years.
    I had the pleasure of sitting in this very room as public 
relations representative for TWA covering those hearings, and I 
remember your leadership on this very critical issue and that 
promise that was made. Over these 30 years, that promise has 
been whittled away at.
    We really look forward to working with the Members of this 
Committee to be able to try and move this into that 21st 
Century, move EAS into the 21st Century because things have 
changed. Demographics have changed. Transportation modes have 
changed.
    We would caution the Committee because some of the carriers 
that are trying to provide this EAS service offer the kind of 
seamless one carrier service that most of regional carriers do. 
They may not have inter line relationships with major airlines, 
may not have independent ticketing and so forth. So to require 
those kinds of connections by statute may be difficult, and 
might actually make EAS service less convenient and less 
attractive for airlines and communities alike.
    But I cite one of the great success stories. I have a clip 
here from the recent Lebanon, New Hampshire newspaper which 
cited Cape Air.
    Mr. Oberstar. Yes, I am familiar with Cape Air.
    Mr. Cohen. One of our great members who started service, 
and they are raving about the kind of service that Cape Air has 
provided, and I think it is that kind of community, 
Congressional and airline partnership that can provide those 
kinds of success stories that we see.
    And I think we want to thank your leadership on it. We look 
forward to working with you on some of these specifics.
    Mr. Oberstar. My hope is to stimulate more of the type of 
Cape Air service through this EAS program.
    Mr. May, don't think I have forgotten about you. Welcome to 
the Committee again.
    Mr. May. Thank you, Mr. Chairman. I have never felt 
unwanted.
    Mr. Oberstar. There is a new provision in this legislation 
dealing with anti-trust immunity for international airline 
alliances.
    Mr. May. H.R. 831.
    Mr. Oberstar. I would like your comments.
    Mr. May. With all of the respect that is due the Chairman 
of the Full Committee----
    Mr. Oberstar. You needn't preface. Just say what you think.
    Mr. May.--we will oppose that provision.
    We have no problem at all with the GAO study. There was one 
done a couple of years ago that showed that actually these 
alliances were positive for consumers in a number of different 
respects and to have them renew that study and update it I 
think would be perfectly appropriate.
    But we think to effectively change the rules in the middle 
of the game for alliances that have been long out there and 
effective and working well, in addition to having them then 
expire at the end of three years, would be counterproductive, 
and so we would not support that legislation.
    Mr. Oberstar. Yes, alliances are one thing, but anti-trust 
immunity goes over the edge on this issue. It protects the 
partners against uncompetitive pricing, against, in effect, 
price-fixing.
    I think alliances are one, but the anti-trust immunities we 
wouldn't do that for General Motors and Ford and Chrysler, and 
we shouldn't be doing this for airlines, frankly.
    I think the alliance relationship has provided seamless 
service. There is still a question in mind whether outright 
competition wouldn't bring better fares and greater savings to 
air travelers.
    But the immunized alliances are going to result in three 
mega global carriers who will not compete with each other, who 
will not provide service to communities at the end of the 
spokes in the hub and spoke system, which will diminish short-
haul service in the domestic United States. And I think it is 
inimical to the future of aviation in the U.S. and in 
international aviation trade.
    You may disagree with that, and your carrier partners in 
the ATA I am sure vigorously disagree with it, but I have to be 
an advocate for the public interest.
    Mr. May. We fully appreciate the intensity of your 
positions, Mr. Chairman.
    Mr. Oberstar. Thank you, Mr. May.
    I will welcome Mr. Fuller in his first testimony before 
this Committee as head of AOPA. Phil Boyer is, I am sure, 
relishing his freedom.
    Mr. Fuller. He is indeed, Mr. Chairman. Thank you.
    Mr. Oberstar. We hope in time you will become as lovable a 
personality at this table as he was.
    [Laughter.]
    Mr. Fuller. It was all part of the transition, I think. I 
am sure he is watching this on the internet.
    Mr. Oberstar. No doubt.
    And, to ACI and AAAE, thank you very much for your 
continued partnership in the great good of aviation.
    Thank you, Mr. Chair.
    Mr. Costello. Thank you.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    A couple of issues that I wanted to raise here today.
    First one, Mr. Principato, I fly every week just about, and 
I get my can of diet whatever they have, and every time I am on 
the plane I always think what a great place to do recycling. 
You have 100, 200 cans maybe on each flight, and I know at most 
airports this is just thrown in with the rest of the waste.
    I am aware of Oakland Airport I think has a recycling 
program there, and I am just wondering how much effort, how 
widespread, how many airports actually do this. How much effort 
would that take?
    My understanding is that it really produces great savings 
to have such a recycling program at the airport for the 
airlines coming in there. And so, why is this not more widely 
done?
    Mr. Principato. Congressman, thank you for the question.
    I think that it is being done at a growing number of 
airports. I know Seattle is another one. You are going to have 
the director of the Seattle Airport here in two weeks to speak 
about wildlife management, but you might file that in the back 
of your mind. They have an excellent recycling initiative with 
their airlines up there, and a growing number of airports are 
doing that.
    We have actually just completed both a survey of our 
airports, so we can give you hard data on that. Our staff would 
be happy to get together with yours on the number and 
percentage of airports that are doing recycling and a number of 
other environmental initiatives that they are doing.
    Our board just last week passed a whole set of 
environmental goals that ACI-North America airports will strive 
to achieve over these next couple of years, with this and a 
number of other issues being in there.
    I don't have the specific numbers on the top of my head 
about the percentage of airports that are doing it, but it is 
larger--larger than you think, I think--and growing number.
    We would be happy to get together with you and your staff 
and brief you on our survey, brief you on the goals that our 
board passed just this past Friday, and we are also putting 
together a little publication highlighting what a number of 
airports around the U.S. and Canada are doing on environmental 
issues.
    Mr. Lipinski. Well, what are the main reasons that airports 
do not have a recycling program?
    Mr. Principato. I think it is probably better to look at 
the reasons why growing numbers of them are because of the 
point you are talking about, cost efficiency and all of that.
    Mr. Lipinski. I am interested more just in why they don't 
have them, why they would not have them and what can be done to 
encourage or help.
    Mr. Principato. Again, I think the industry is responding 
to the points that you have made. There are a growing number of 
airports that are doing it. Obviously, 20 years ago, none of us 
recycled anything, and we are all sort of moving in that 
direction.
    I think you will be very pleased with the results of our 
survey, like I said, that we will brief you on, the goals that 
our board passed just this past Friday and the other work that 
the airport community is doing on the environmental side.
    Mr. Lipinski. Thank you.
    I had another question, another issue that I wanted to 
address to Mr. May, something I am sure that you hear a lot 
about. It is, first of all, the fees for baggage on planes. It 
is one thing that these fees were put in when gas prices or 
aviation fuel prices went up and peaked at about $4.00 a gallon 
and now down to about $1.54 a gallon, but we still have the 
baggage fees.
    Now I don't want to get into a debate over the fees 
themselves. I am more interested in issues that since we do pay 
for our bags now on planes, there continue to be issues with 
and problems with baggage. I think especially when passengers 
are paying for the baggage service, that they even should have 
a higher or they even have a higher expectation for their bags 
being taken care of and getting there in a timely manner.
    There was a story in the Chicago Tribune the other day 
about someone whose luggage actually got lit on fire, their 
clothes burned, which, accidents happen, but the problem was it 
took a long time before they ever got any restitution for that.
    I myself, had an experience last month. I was coming back, 
or two months ago, I was taking a flight back. It was late at 
night, and I am at O'Hare Airport, and it took over an hour for 
the bags to get there.
    Finally, after 45 minutes, someone decided that they would 
actually go and check on what was going on after no one else 
would. And they said that they took the bags off the plane and 
they were left somewhere, just sitting there.
    So we have these issues, and I hear other issues.
    Shouldn't there be an expectation, especially paying for 
bags, that their bags are going to arrive in a timely manner?
    It just seems like especially if these fees are going to 
continue to be charged, even though I am not sure why they 
still are, but I just wanted to know what your response would 
be, Mr. May.
    Mr. May. My response, Mr. Lipinski, is that I hear this 
issue as frequently as you might imagine I do.
    The good news is that in the latest report by the 
Department of Transportation, the number of mishandled bags has 
in fact dropped and it has been consistently dropping for the 
past couple of months. So we are getting better at it, but two 
bags or one bag or fifteen is not an acceptable number.
    Our carriers recognize that the construct that you have 
posed here, that it is one thing if you lose my bag and I have 
just checked it and I haven't paid anything, but if I am being 
charged for, then you lose it, that is a whole other metric.
    And so, I think what we are suggesting to you is we 
recognize the problem. We are working on it as we are on all of 
our customer service issues, and it is one that I will make 
sure I raise back with my folks at the earliest opportunity.
    Mr. Lipinski. One quick addition, do airlines, if there is 
a problem, is there a general policy to refund the money that 
was paid if there is a problem?
    Mr. May. Each carrier has in fact a policy. There is a DOT 
policy that governs as well. I don't happen to have the details 
in the front of my memory bank, but I would be more than happy 
to communicate back to your office and provide those to you.
    Mr. Lipinski. Thank you.
    Mr. Costello. The Chair thanks the gentleman and now will 
recognize two Members for questions, and then we will go to the 
next panel. Mr. Graves from Missouri.
    Mr. Graves. Thank you, Mr. Chairman. I wanted to follow up 
on my statement earlier, and I didn't want to step on the 
Chairman, because he had to go to the meeting. But given the 
state of the economy and what I mentioned earlier about the 
problems we are seeing, and obviously the attitude toward 
general aviation, and thank goodness, the provision was pulled 
that any company that receives Federal dollars would have to 
sell their private aircraft, which is something that concerned 
me.
    I guess this question would be for Mr. Bolen, possibly for 
Mr. Fuller. But I know for Mr. Bolen, because you represent the 
Business Aviation Association. Can you expand a little bit on 
what kind of impact that would have on an entire industry? And 
I know there are companies out there selling aircraft just 
because of the perception that is going on, which concerns me.
    Mr. Bolen. Well, Congressman, you talked about the attitude 
that was at the heart of the aircraft divestiture issue. I 
believe that is an attitude that is based on a caricature of 
business aviation that is totally unrepresentative of the 
community. The reality is that it is not only unrepresentative, 
it is also very dangerous for our community.
    Business aviation is about jobs, manufacturing and service. 
It is about a lifeline to small communities, and you have 
talked about that yourself. And it is about allowing companies 
to be productive. I think that the reality is that there may be 
times when business aviation isn't appropriate for all 
missions. But let's be clear about something: business aviation 
is prudent and cost-effective in a huge number of situations. 
It is prudent and it is cost-effective when the community you 
are trying to reach has no commercial airline service.
    It is prudent and cost-effective when you are trying to 
visit multiple sites in a single day. And it is prudent and 
cost-effective when you have products that cannot be carried 
aboard the commercial airlines or shipped. And it is prudent 
when you have a team of people who have to quickly get 
somewhere and they need to discuss proprietary information en 
route. Or if there is a team that needs to work together to 
plan a presentation to be given there.
    Those are times when business aviation makes sense. It 
makes up 99 percent of the operations. It is critical to our 
Nation's air transportation system. It is critical to our 
Nation's job space. And I appreciate very much the work of so 
many Members on this Committee who have taken the time to speak 
out about the importance of business aviation, not just for 
their districts, but for the Nation. And thanks to the hard 
work of people like you and others on this Committee, we were 
able to turn that around. We ask that you continue to speak out 
on that.
    Mr. Graves. Mr. Fuller?
    Mr. Fuller. I would just add that we looked on election day 
last year at the question in a survey that suggested that 
almost two-thirds of the people responded that general aviation 
as defined as non-military, non-scheduled carrier was an 
important part of the Nation's transportation system. I think 
one of the reasons that I looked with some horror at the 
singling out of certain individuals or certain practices by 
companies was, I think the vast majority of the American 
people, in community after community, recognized that aviation 
does play an important role. I know we are committed to sharing 
that story more broadly. But I actually think there is a base 
there that supports not only what we believe but what you have 
fought for, and that we are going to continue to carry that 
message out there.
    Mr. Graves. Thank you, Mr. Chair.
    Mr. Costello. Finally, the Chair recognizes Mr. Boswell 
from Iowa.
    Mr. Boswell. Thank you, Mr. Chairman. I will be brief, I 
know the day is long, but something I think it is okay to bring 
up, and you can stop me if you wish. And I am sure you will, if 
you choose to.
    I am concerned about some other matters. We were the 
birthplace, after 9/11, of what became TSA. I could tell 
several stories, make a comparison of my life, when people get 
authority sometimes they handle it extremely well, and 
sometimes they don't.
    Well, it seems that right now, they are thinking about 
coming out with a notice of proposed rulemaking which would 
involve general aviation aircraft weighing more than 12,500 
pounds. And I get to thinking about the cost, and the 
involvement to do that, and what it would do to airports like 
in my district and across the Country that I have used.
    And then I think about the efforts, and I want to ask you, 
Mr. Fuller, to say something about this, if you don't mind. I 
think of the effort the general aviation, private pilots and 
general aviation pilots that do things, as Mr. Jones did today 
and so on, we have put genuine effort into making sure that we 
hold up our end of that security and that safety. And the 
record is good.
    And I think we need to discuss this very openly. We have an 
economy that is really in pain. We have budget problems. Yes, 
we have safety problems, but I think we are dealing with it 
pretty well. I think we need to discuss, I don't know, maybe it 
is not fair to you, Mr. Fuller, having you comment as you are 
six weeks into the job. But this weighs kind of heavy. Would 
you want to comment on that? Maybe some of the rest of you 
would, too, because I think it affects everybody.
    Mr. Fuller. Mr. Boswell, I'd be delighted to comment. First 
of all, I think everybody up here, and I know AOPA, absolutely 
stands for making sure that our general aviation fleet and our 
airports are secure. We have had an airport watch program that 
has worked extraordinarily well. We don't see threats of the 
kind that are being imagined that produced this regulation.
    The 12,500 pound number goes to a certification guideline, 
not to some kind of careful study of what constitutes 
hazardous, dangerous weapons of destruction. The KingAir 90 is 
under that limit. I have flown that airplane. The KingAir 200 
is over that limit. I have flown that airplane. We have an 
aircraft in our fleet that takes off at 13,870 pounds, carries 
4,000 pounds of fuel. There are two of us up front, there are 
four or five people in the back. We know exactly who is in that 
aircraft. It is inconceivable to me that the people who fly 
that type of aircraft over the limit are really going to have 
to be subjected to a security system and a security program 
similar to what large, commercial aircraft would have to use.
    We have all testified, some of us have testified around the 
Country in opposition to this. We do fear that TSA feels 
strongly they want to go forward. We would hope that they would 
get into a negotiated regulatory procedure so that we could 
have a rational discussion about what constitutes a legitimate 
threat and what simply constitutes a further burden on an 
already over-burdened private aircraft industry. Thank you for 
raising the question.
    Mr. Boswell. I think, Mr. Elwood, for example, your airport 
you described so well, you know what is going on at that 
airport. Your workers know what is going on at that ramp. This 
watch program we have going on, I am quite sure you have 
implemented, it is working, I am sure it is.
    Mr. Elwood. You have obviously brought common sense to this 
situation, which is refreshing. I think that there is a 
misconception at times that general aviation is a lot like 
picking up a taxi out in front of this Capitol and that people 
don't understand how the background is done. They know who is 
getting on that airplane, they know the role that person is 
going to play on that aircraft, and that the risk is really 
what needs to be focused on.
    And blanket solutions rarely work in aviation, as you all 
know. Every airport has unique circumstances, as well as unique 
security challenges. So from the airport side, we look forward 
to trying to work with the TSA to get a better understanding 
about what the real risks are and where are the resources that 
actually do help protect the citizens of the United States and 
are showing benefit. It is not an easy answer; but it is the 
reality.
    Mr. Boswell. Mr. Chairman, I would guess everybody could 
comment on this on the panel. But I am going to ask that we put 
this on our plate of things to do, not that you need other 
things to do. But I think we have to put it on there, and I am 
going to ask that we put it on our plate.
    Thank you, and I yield back.
    Mr. Costello. I thank you, Mr. Boswell. Points well taken 
and points that I agree with. As you know, we have limited 
jurisdiction with TSA, we have oversight responsibility. But it 
is certainly something that we should weigh in on. And I thank 
you.
    Gentlemen, we thank you for your testimony and spending 
most of the day with us. We hopefully will see some of you 
again in the not too distant future in some upcoming hearings.
    But again, thank you.
    We would ask the next panel to come forward, the witnesses, 
please. I will introduce them as they are coming forward.
    Mr. Patrick Forrey, who is the President of the National 
Air Traffic Controllers Association; Mr. Tom Brantley, who is 
President of the Professional Aviation Safety Specialists; 
Captain John Prater, who is President of the Air Line Pilots 
Association, International; Ms. Patricia Friend; Mr. Robert 
Roach; Mr. Robert Gless and Ms. Kate Hanni. Would you all 
please come forward?
    The Chair welcomes the final panel before us this 
afternoon, early evening. We will begin by recognizing Mr. 
Forrey with NATCA.

 TESTIMONY OF PATRICK FORREY, PRESIDENT, NATIONAL AIR TRAFFIC 
CONTROLLERS ASSOCIATION; TOM BRANTLEY, PRESIDENT, PROFESSIONAL 
  AVIATION SAFETY SPECIALISTS, AFL-CIO; CAPTAIN JOHN PRATER, 
PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; PATRICIA 
    FRIEND, INTERNATIONAL PRESIDENT, ASSOCIATION OF FLIGHT 
  ATTENDANTS, CWA; ROBERT ROACH, JR., GENERAL VICE PRESIDENT, 
INTERNATIONAL ASSOCIATION OF MACHINISTS AND AEROSPACE WORKERS; 
   ROBERT GLESS, ASSISTANT DIRECTOR, AIR TRANSPORT DIVISION, 
TRANSPORT WORKERS' ASSOCIATION OF AMERICA, AFL-CIO; KATE HANNI, 
                  PRESIDENT, FLYERSRIGHTS.ORG

    Mr. Forrey. Chairman Costello and Ranking Member Petri, 
Members of the Committee, thank you for the opportunity to 
testify again.
    My name is Patrick Forrey, I am the President of the 
National Air Traffic Controllers Association. NATCA represents 
over 16,000 air traffic controllers and other aviation safety 
professionals.
    FAA reauthorization is NATCA's highest legislative 
priority. I would like to commend the Subcommittee for its 
demonstrated understanding of the important issues facing the 
Nation's aviation infrastructure.
    I would like to take a few moments to highlight some of the 
aspects of the bill. NATCA fully supports and endorses the 
Federal Aviation Administration Personal Management System as 
written in the Reauthorization Act of 2009. As this Committee 
is well aware, the air traffic controller work force that I 
represent has been working under imposed work and pay rules 
since September of 2006. This action not only violated the 
FAA's legal right and obligation to bargain in good faith, but 
it also violated fundamental principles of fairness. In effect, 
the FAA stripped this Union of its collective bargaining 
rights.
    The effects of the imposed work rules have been 
devastating, not only to the working lives of controllers, but 
to the safety and integrity of the National Airspace System. As 
a direct result of the imposed work rules and pay system, air 
traffic controllers began a mass exodus from the FAA. The vast 
majority of those that left did so not because they reached 
their mandatory retirement age, but simply because they had had 
enough.
    Since the imposed work and pay rules were unilaterally 
implemented nearly 28 months ago, we have lost upwards of 
almost 5,000 controllers, equating to over 46,000 years of 
experience. The FAA is hiring to make up for these devastating 
losses, but they cannot keep up.
    The air traffic control system is clogged with trainees. 
Approximately 25 percent of the controller workforce is still 
in training, and that number will grow. At some facilities, the 
ratio exceeds 50 percent of the workforce.
    They are being placed in high level terminal facilities 
which do not have the curricula to train those with no previous 
ATC experience, and in some cases they are waiting as much as 
18 months for their first day of on the job training.
    For fiscal years 2006, 2007 and 2008, the agency has only 
been able to completely certify 718 trainees out of the 4,480 
hired and still employed in those three years. Mr. Chairman, 
that is only 16 percent. And I want to be clear, the trainees 
and new hires themselves are not the problem. They are 
dedicated professionals who represent the future of the air 
traffic control system, and if given the proper tools and 
training, they will excel in this safety profession.
    The problem is the agency's inability to provide them with 
the comprehensive training they need. They are being denied the 
opportunity to learn from experienced controllers, quickly 
rushed through and flushed out of training, and forced to 
shoulder far too much air traffic control burden at this early 
stage of their careers.
    This staffing shortage has left the remaining workforce 
strained to the breaking point. Fatigue has become a serious 
concern. Controllers are being required to work excessive 
quantities of overtime, and are therefore unable to fully 
recover between shifts. On shifts themselves, controllers are 
often finding they are understaffed and forced to work combined 
positions without radar assistance and with less opportunity to 
recover after major pushes. In short, the imposed work rules 
have meant fewer eyes watching the skies and those that are 
remaining are less experienced and fatigued.
    FAA reauthorization addresses this problem by requiring the 
FAA to return to the bargaining table in order to reach a 
mutually agreeable collective bargaining agreement with NATCA. 
This would effectively stem the flow of experienced controllers 
from the workforce and make it easier to retain new hires. 
Additionally, this section amends Title 49 to ensure that this 
will not happen again in the future.
    This bill also addresses issues of realignment at FAA 
facilities and services. NATCA is extremely concerned with the 
reckless realignment initiatives the FAA has unilaterally 
initiated over the course of the last year. The FAA recently 
split tower radar functions at Orlando into two separate 
facilities, and is planning to do the same in Memphis in June, 
followed by other facilities. This is another example of FAA's 
go-it-alone way of doing business, rather than truly providing 
an operational benefit. These deconsolidations are designed 
only to conceal the staffing crisis at each of these 
facilities.
    FAA reauthorization must ensure that all FAA realignment 
issues are considered in a collaborative environment and 
provide a specific operational benefit. We support the 
establishment of a work group of stakeholders to review all 
realignment initiatives prior to the FAA beginning the 
realignment process.
    As we have said all along, if you make us part of the 
process, we will be part of the solution. NATCA also supports 
the authorization of a scientific study on air traffic control 
staffing to be conducted by an independent third party. Rather 
than consider the safety needs of the NAS, the FAA based their 
current staffing standards on budget alone.
    The justification provided on the FAA's controller 
workforce plan is nothing more than smoke and mirrors. The 
current standards were designed to deliberately conceal current 
staffing crises. For example, according to the FAA's current 
standards, the New York TRACON is over-staffed. Yet the FAA is 
offering controllers a $100,000 incentive to transfer there. 
Why would that be? Because their staffing ranges are 
meaningless and do nothing to reflect the actual needs of the 
facility.
    The staffing study proposed by the FAA reauthorization 
would allow the FAA, Congress and NATCA to truly assess the 
current risks o the system and set benchmarks for resolving the 
staffing crisis.
    And lastly, I would like to address the related issues of 
modernization and maintenance. NATCA fully supports the funding 
levels set aside for the modernization of the air traffic 
control system, but we remain concerned about the direction of 
NextGen. Thus far, the FAA's plans for NextGen remain poorly 
defined and carefully guarded. We believe that the success of 
this or any modernization effort is dependent on transparency 
and collaboration with all stakeholders. It is our hope that 
after the imposed work rules are removed and NATCA and the FAA 
reach a mutually agreeable contract, we can return to an era of 
cooperation and collaboration that will best serve the needs of 
the NAS.
    We also want to be sure that funding for NextGen does not 
come at the expense of NowGen. Under the previous 
Administration, FAA facilities were allowed to fall into 
disrepair while the FAA pursued ill-defined modernization 
goals. This level of deterioration is unacceptable. The FAA 
must maintain and repair existing AT facilities in a manner 
that ensures the safety and security of personnel working there 
and allows aviation safety professionals the tools they need to 
do their job.
    Mr. Chairman, thank you for the time.
    Mr. Costello. The Chair thanks you, Mr. Forrey, and now 
recognizes Mr. Brantley.
    Mr. Brantley. Thank you.
    Chairman Costello, Congressman Petri, and Members of the 
Subcommittee, thank you for inviting PASS to testify today. As 
you know, PASS represents approximately 11,000 FAA employees in 
the United States and overseas, and we appreciate the 
opportunity to present our views on FAA reauthorization.
    Ensuring a fair contract negotiations process at the FAA is 
of utmost importance to PASS. By taking advantage of the 
ambiguities in current law governing those negotiations, the 
FAA has consistently refused to bargain in good faith with PASS 
and other FAA unions.
    The hostile environment this creates threatens the 
productivity of FAA employees and the efficiency of the 
aviation system. And while we are all familiar with the FAA's 
unilateral imposition of changes to working conditions to air 
traffic controllers, I would like to share with you a few of 
the things that we have faced over the years.
    Contract negotiations for four out of the five units of 
employees that PASS represents have been at impasse for six 
years. In our largest bargaining unit, the technical operations 
unit, the agency showed no interest in reaching a mutual 
agreement. As a result, when the agency's final proposal was 
presented to our members for a vote, it was rejected by 98 
percent of those members.
    It is clear that a change is needed in order to ensure FAA 
employees their right to collective bargaining. PASS 
appreciates the language that was included in the FAA 
reauthorization bill introduced this week. PASS is in full 
support of the language clarifying that the Federal Service 
Impasses Panel has jurisdiction over bargaining impasses 
arising at the FAA and that binding arbitration before a 
neutral third party is the method used for resolving bargaining 
disputes.
    Understaffing is also a major concern for PASS, especially 
in our technical and safety inspector bargaining units. 
Inadequate technical staffing has resulted in a move toward a 
``fix-on-fail'' approach where preventive maintenance and 
certification of NAS systems and equipment are significantly 
reduced. PASS is especially concerned with changes the FAA has 
made to its time-tested certification process in which a 
certificated FAA technician checks or tests these systems and 
equipment on a periodic basis in order to ensure that they are 
safe for use. Not only has the FAA moved away from a proactive 
maintenance philosophy with its new concept, but it has also 
changed its policy to now prohibit certification of all systems 
that it does not own.
    As the FAA works to modernize the NAS, the systems and 
equipment must be properly certified by FAA technicians in 
order to ensure safety and reliability. As such, PASS proposes 
that language be added to the FAA reauthorization legislation 
making it clear that the FAA will make no distinction between 
public or privately-owned equipment, systems or services used 
in the NAS when determining certification requirements.
    With regard to the inspector workforce, PASS appreciates 
the efforts of this Committee to address the inspector staffing 
situation by including language in the reauthorization bill 
authorizing funding to increase inspector staffing.
    With the many challenges facing the aviation industry 
today, including outsourced maintenance work in this Country 
and abroad, it is imperative that there are enough inspectors 
in place to monitor the safety of the system. In particular, 
PASS appreciates the language that was included mandating that 
all certificated foreign repair stations be inspected at least 
twice a year by an FAA inspector.
    Furthermore, in light of last year's Southwest incident and 
questions regarding the FAA's aviation safety oversight 
program, PASS supports the inclusion of language aimed at 
strengthening and improving FAA oversight of the system, 
including improvements to the customer service initiative and 
the voluntary disclosure reporting program.
    PASS is looking forward to working with this Committee to 
ensure the safe and efficient modernization of this Country's 
aviation system. PASS and the employees we represent are 
hopeful that this Committee will enact legislation that will 
allow positive labor management relations and ensure that 
safety of the aviation system is always the top priority.
    Thank you, and I would be happy to answer any questions you 
may have.
    Mr. Costello. We thank you, Mr. Brantley.
    The Chair now recognizes Captain Prater.
    Mr. Prater. Good afternoon, Chairman Costello, Ranking 
Member Petri, and Members of the Subcommittee.
    When passed, the FAA Reauthorization Act of 2009 should 
make significant strides in advancing aviation safety and 
herald a new era for U.S. air transportation. I will outline 
six priority safety and policy areas for the 53,000 members of 
the Air Line Pilots Association, International. Several are 
covered in the last Congress's reauthorization bill. However, a 
number of critical concerns have not yet been addressed.
    First, no industry was hit harder by the 9/11 attacks than 
the U.S. airlines. To keep our companies in business, our 
pilots took enormous concessions. As a result, our members 
often fly right up to the regulatory limits for flight and duty 
time. Sixteen-hour domestic duty days and longer in 
international flying are a fact of life for pilots. Irregular 
shifts, multiple time zones, all-night operations and disrupted 
circadian rhythms all contribute to pilot fatigue. The eight-
hour rest period in the current regulations includes travel to 
and from the hotel, and pilots often cannot get time or relax 
enough to receive more than five or six hours of sleep.
    ALPA advocates a complete overhaul of the regulations based 
on modern science. The rules must apply to all sizes of both 
passenger and cargo operations. They must encompass adequate 
rest periods, reasonable duty periods, and provisions for 
crossing multiple time zones and flying on the backside of the 
clock.
    ALPA strongly supports bill language that directs the FAA 
to commission a National Academy of Sciences study to collect 
new data on pilot fatigue and then to use it to update the 
regulations.
    Second, fostering a safe air transportation system also 
requires a foundation of voluntary non-punitive safety 
reporting programs. These programs must be based on the 
unshakable sense of trust among the participants. Most reports 
are sole-sourced, meaning only the person reporting knew that a 
mistake occurred. Without full confidence that reporting an 
error will be used solely to advance safety, employees will 
have little incentive to come forward and valuable safety 
information will be lost.
    Moreover, safety management systems will be stymied without 
them. Programs have been suspended because of mis-used reports. 
We ask Congress to protect voluntarily supplied safety 
information against mis-use for discipline, FAA sanctions, or 
litigation.
    Third, few would deny the need to modernize the Nation's 
air space. It is a priority for ALPA. Infrastructure, 
equipment, and facilities are severely outdated. Modernization 
is a complex, expensive and long-term endeavor that must be 
done right the first time. Long-term stable funding is 
essential. Airlines currently pay the majority of costs for 
operating the national air space system. All users will benefit 
from a safe, modern system. All should bear a fair share of the 
cost.
    A related air space management concern for pilots is 
unmanned aerial systems, or UAVs. Regulations must ensure 
safety before these aircraft can share air spaces with 
airliners. ALPA pilots hail the provisions in the bill to 
enhance runway safety, research wake turbulence, icing and 
other weather impacts on airline operations, and continue to 
operate Midway Island Airfield as a trans-Pacific emergency 
landing option. The Wake Island Airfield must also be included.
    We commend your efforts to establish oversight requirements 
for the airlines using non-certificated maintenance facilities. 
We also note two areas that warrant additional support: 
research to reduce encounters with volcanic ash and to reduce 
encounters with wildlife hazards.
    Fourth, many cargo aircraft operate without flight deck 
doors, a critical layer of safety for pilots who, along with 
their cargo, often fly animal handlers and couriers who are 
vetted using only limited ground procedures. All FAR Part 121 
operations must be afforded one standard of safety and 
security. We call on Congress to ensure that cargo aircraft are 
equipped with reinforced flight deck doors or an equivalent 
level of protection.
    Fifth, ALPA also strongly backs language in the bill 
affirming that U.S. citizens must control key operational 
aspects of U.S. airlines. This bill does that by identifying 
fleet composition, route selection, pricing and labor relations 
among the operational elements that the Department of 
Transportation must ensure U.S. citizens control.
    Finally, while safety decisions must never be based on 
economics, our industry's financial health is extremely 
important to pilots. Large price spikes and jet fuel scarcity 
pose the greatest threat to industry stability. ALPA urges 
Congress to swiftly adopt a national energy policy that will 
increase a stable jet fuel supply, reduce rampant oil investor 
speculation, and hold the line on new fuel use taxes, charges 
and fees.
    This FAA reauthorization bill holds promise for powerful 
change. As the professionals who make the airline industry work 
every day and every night of the year, we are the ones who know 
what works and what doesn't. When in doubt, ask us.
    Thank you for doing that by having us here today.
    Mr. Costello. Thank you, Captain Prater.
    And now the Chair recognizes Ms. Friend.
    Ms. Friend. Thank you, Chairman Costello and Ranking Member 
Petri for giving AFA-CWA, the world's largest flight attendant 
union, the opportunity to testify today.
    My written testimony details a number of critical issues 
for the Nation's flight attendants, from our lack of basic OSHA 
protections to the growing and serious problem of flight 
attendant fatigue, problems with cabin air quality, and lack of 
access to a HIMS program for flight attendants. These are all 
serious problems that the FAA has neglected and refuses, in 
most cases, to even recognize.
    We appreciate that the leadership of this Committee has 
worked closely with us to address these issues and to force the 
FAA to do its job to protect the safety and health of those 
that call the aircraft cabin their workplace and those who 
daily travel with us.
    We also are in full support of the provision the in-flight 
use of cell phones, but we would like to suggest, in order to 
ensure the peace and quiet in the cabin that we know 
Congressman DeFazio is seeking, that the Committee should also, 
as communication technology advances rapidly, consider a 
prohibition on the use of voice-over internet protocol in the 
cabin as well.
    We look forward to continue working with you as this bill 
moves through the legislative process. However, we are 
concerned that the growing safety and security risks posed by 
the exploding number of carry-on bags being brought on board 
the aircraft is not currently addressed in the bill. Since the 
mid-1990s we have tried to force the FAA to adopt and enforce a 
uniform policy for carry-on bags, but again the FAA refuses to 
recognize the problem and has failed to protect flight 
attendants and passengers.
    With airline management imposing checked-bag fees, we have 
seen a dramatic increase in the size and number of bags being 
brought into the aircraft cabin. One major carrier recently 
measured a 25 percent drop in checked luggage following the 
imposition of checked baggage fees. Those bags end up in the 
aircraft cabin. This poses a serious risk to the safety of 
passengers and flight attendants, and poses a security concern 
in the aircraft cabin. We would like to work with the Committee 
to include language in the final bill that would create a 
concise, uniform and enforceable standard to limit the size and 
number of bags being brought into the aircraft cabin.
    This FAA reauthorization process is also a sound platform 
to begin a comprehensive discussion on developing a national 
aviation policy for our Country. This legislation addresses 
some immediate and long-term needs, and that is appropriate. 
But the larger conversation must take place on how we want to 
build a 21st century aviation policy for our Country. It is a 
conversation we believe is long overdue.
    This FAA reauthorization is one of the most comprehensive 
and worker-friendly reauthorization bills in memory, and again 
I applaud the Committee's work. For instance, I am pleased to 
see increased funding for EAS. Service to small and even mid-
sized communities are the first casualties when airlines cut 
capacity, leaving a trail of wasted infrastructure investments 
and unemployment for aviation workers. I applaud the Committee 
for making a bold policy statement that service to all 
communities is important. This is the type of discussion and 
policy-making that needs to occur on a broader stage.
    Chairman Oberstar's recently introduced legislation, H.R. 
831, is one of those important steps that, along with this FAA 
reauthorization, will help in ensuring a vital domestic U.S. 
aviation system. This, along with provisions in the 
reauthorization that address the issue of foreign ownership and 
control of our domestic airlines, are important in protecting 
U.S. workers and consumers.
    Today's hearing serves two purposes in my view, Mr. 
Chairman. First, AFA-CWA endorses this bill and urges you to 
include a one-size-fits-all carry-on baggage policy in the 
bill. Second, this legislation and this hearing have provided a 
long overdue platform for formulating a national, indeed a 
rational, aviation policy for our Country. In this season of 
change, this is our opportunity to construct a 21st century 
aviation policy that works for passengers, communities and the 
union women and men who each and every day transport a number 
of passengers equal to the size of the city of Chicago.
    It is time that millions of aviation workers are part of 
the debate on what our aviation policy will be, and I look 
forward to working with you to make that happen.
    I thank you for your time, and I look forward to your 
questions.
    Mr. Costello. We thank you for your testimony, Ms. Friend.
    The Chair now recognizes Mr. Roach.
    Mr. Roach. Thank you, Mr. Chairman and Members of this 
Subcommittee, for the opportunity to speak to you today.
    My name is Robert Roach, Jr., General Vice President, 
Transportation, for the International Association of Aerospace 
Workers, the IAM. I am appearing at the request of 
International President R. Thomas Buffenbarger.
    The machinists' union is the largest airline union in North 
America. We represent more than 100,000 U.S. airline workers in 
almost every classification, including flight attendants, ramp 
service workers, mechanics, and passenger service employees. On 
behalf of those workers who ensure that the United States has a 
safe, secure, reliable air transportation system, I am 
presenting to you today some of their concerns they hope to be 
addressed in the FAA reauthorization bill.
    From the outset, we are looking for a level playing field 
to continue to have a safe, secure transportation system. It is 
in the Nation's interest. As a matter of fact, it is a matter 
of national security that the United States have a safe, secure 
system. Many of our jobs have been forced overseas to foreign 
repair stations.
    We are asking today that the FAA reauthorization bill 
create a level playing field which would incentivize some of 
these domestic carriers to bring some of that work back home. 
Foreign repair stations have little or no oversight. 
Restrictions and testing and background checks are not required 
in these overseas inspection stations. Overseas FAA inspections 
are not announced, and more importantly those that are 
announced very rarely take place. The public deserves one level 
of safety, regardless of where the aircraft are maintained.
    On the issue of express carriers, UPS and FedEx are treated 
differently. The laws are applied inconsistently. Employees who 
work for UPS are governed by the National Labor Relations Act. 
Employees working for FedEx, for some reason unknown to us, are 
covered by the Railway Labor Act, which makes it very difficult 
to organize those employees who, in many cases, want to be 
represented. The express language in the Railway Labor Act 
needs to be modified to provide consistency throughout the 
industry.
    Flight attendant safety. The recent successful evacuations 
of Continental Flight 1404 in Denver, and US Airways Flight 
1549 in the Hudson River demonstrate flight attendant skill and 
heroism. Rest periods should be exclusive of any job 
responsibilities or hotel transfer time. IAM contract times 
exceed FAA mandates, but not every flight attendant has union 
protection. Flight attendants should be covered by OSHA. We 
need to protect the people who protect us in flight.
    Fixed-based operators. There is a great debate in Congress 
and throughout our Country about the Employee Free-Choice Act. 
Conversely, we have a group of people who voted by secret 
ballot, in some cases 40 or 50 years ago, to be represented by 
a labor organization, and now, as a reinterpretation of law, 
not a change of law, these people are told that they are no 
longer represented by labor organizations. These people fix and 
maintain aircraft in our Country. These people fuel aircraft in 
our Country. And as a result, there is an instability in the 
fixed-based operations of people who once enjoyed a decent job, 
who now have transit people making minimum wage working on $40 
million or $50 million aircraft. The misapplication of the 
Railway Labor Act has many workers without a union or a 
contract.
    Since 9/11, airline workers have sacrificed their wages, 
pensions and work rules and more than 200,000 jobs in order to 
rescue the industry. Industry conditions have imposed wage 
burdens on workers and carriers to reduce costs. Such 
extraordinary focus on the bottom line demands greater, not 
less, government oversight and proper FAA funding is a must. We 
were inspired by President Obama's speech the other night about 
taking education, bringing education, educating people to 
attach them to the skills that we will need for the future.
    The IAM is presently involved in a mentorship program with 
Aviation High School. We have met the young men and women who 
graduate from Aviation High School, and then we place them in 
skilled jobs, Pratt & Whitney. We were in discussions with 
Governor Sebelius of Kansas to bring some of these young men 
and women before the economy went bad.
    We believe that some of the billions of dollars that are 
going to be spent to create jobs, to educate people, should be 
spent on programs such as apprenticeship programs so that 
people graduating from high school with skills can be mentored 
and placed in skilled jobs in our Country.
    We look forward to working with the Department of 
Transportation, and whoever the FAA administrator is, that they 
should have the flexibility to work with us to create better 
programs so that we can have better jobs, better skills, and 
our work will not have to go overseas because we will have the 
workforce in America to do those jobs.
    Thank you, Mr. Chairman, for the opportunity to speak, and 
we look forward to working with you and this body, and the 
opportunity to speak with you.
    Thank you.
    Mr. Costello. We thank you, Mr. Roach.
    The Chair now recognizes Mr. Gless.
    Mr. Gless. Thank you.
    Mr. Chairman, the Transport Workers of America, on behalf 
of its 200,000 active and retired members in the transportation 
industry, including the airline mechanics at American Airlines, 
American Eagle, and the flight attendants of Southwest 
Airlines, appreciate the opportunity to appear before the 
Committee.
    In particular, I would like to thank the Committee for its 
diligence in passing H.R. 2881, the FAA reauthorization bill in 
the 110th Congress, and we look forward in this 111th Congress 
to the successful passage in the House and Senate of a 
reauthorization bill that discontinues the double-standard that 
is applied to aircraft maintenance.
    In addition, we hope to see the FAA put in place critical 
and timely provisions for flight attendants that will enable 
them to perform their duty safely. Briefly, since Mr. Roach and 
Ms. Friend have spoken specifically on flight attendant issues, 
we support occupational safety and health standards for flight 
attendants. We think they are long overdue. Completing the 
study on flight attendant fatigue is another endeavor that will 
ensure that flight attendants will be able to perform their 
duties to the best of their ability.
    Specifically today, I would like to speak on the issue of 
aircraft maintenance. The TWU represents roughly 15,000 workers 
who fall within the category of interest. There are four 
recommendations regarding aircraft maintenance that we see as 
necessary to ensure safe and secure air travel for the American 
public.
    One is to require that all maintenance on aircraft used in 
domestic U.S. service be done in FAA-certified repair 
facilities. Two is to require as a condition of FAA 
certification is that all repair stations meet the same 
standards. This would include, but not be limited to, drug and 
alcohol testing, background security checks, and Part 65 
aircraft mechanic certification.
    Three is to reconfigure the FAA inspection and oversight to 
place the greatest scrutiny on those repair stations whose 
audits determine to propose the greatest risks to safety and 
security.
    And four, requires conditions of FAA certification that all 
repair stations be subject to unannounced FAA inspections. The 
FAA should be prohibited from certifying any repair station in 
a country that does not allow unannounced inspections and 
should immediately revoke any existing certifications in such a 
country.
    There is no doubt that maintenance work that is done in-
house by the U.S. carriers themselves is probably the safest, 
most secure type of maintenance. This is because the work is 
done under the direct control of the carrier supervisors and 
there is an additional layer of supervision and inspectors 
dedicated to completing the tasks. They ironically receive the 
highest scrutiny and FAA oversight of all.
    As reported in the FAA's recent report, the Air Carriers 
Outsourcing of Aircraft Maintenance, issued on September 30, 
2008, out of the nine carriers that were reviewed, 71 percent 
of their heavy airframe maintenance check was outsourced to 
repair stations. Since 2003, the trend of sending this work out 
of house has more than doubled, from 34 percent in 2003 to 71 
percent in 2007.
    In 1989, the TWU testified against the FAA rule change. 
Unfortunately, we were right in predicting that the elimination 
of limits on movement of maintenance would result in the 
outsourcing of tens of thousands of jobs to overseas 
facilities. Just days ago, Congress passed an economic stimulus 
package that would put some people back to work. My suggestion 
to keep the airline industry afloat is to keep it safe and 
secure by encouraging more air carriers to ensure safety by 
establishing the same rules and scrutiny on foreign maintenance 
bases as are here in the States, which will keep the U.S. air 
carrier mechanics working.
    Thank you for the opportunity to testify before you today. 
We look forward to answering any questions that you may have to 
my testimony.
    Thank you.
    Mr. Costello. Thank you, Mr. Gless.
    The Chair now recognizes Ms. Hanni.
    Ms. Hanni. Chairman Costello and Ranking Member Petri, 
thank you for inviting Flyersrights.org to testify in 
connection with the FAA Reauthorization Act of 2009. We were 
pleased with the last Congress's legislation, and we were 
disappointed that it did not get enacted, but we see that as an 
opportunity for this Congress to enact even stronger 
legislation in regard to airline passengers' rights.
    We applaud the provisions recently introduced in H.R. 915 
by Chairman Oberstar and Chairman Costello, but we also ask you 
to consider language suggestions to the Subcommittee staff. 
Specifically, we hope you would consider Congressman Mike 
Thompson's H.R. 624, the Passengers Rights Act of 2009. It has 
24 co-sponsors already and mandates effective minimum standards 
for water, food, working toilets, tolerable temperatures, and 
an option to deplane after three hours if it can be done 
safely.
    An identical bipartisan bill has been introduced in the 
Senate, and our Members are working to garner additional 
support for these bills in both chambers.
    You will hear from the airline lobbyists that we are doing 
a better job reducing our handling of long tarmac delays. Let 
us handle it, they say, using the same arguments they advanced 
in convincing Congress in 1999 to stop working on passenger 
rights legislation and accepting voluntary airline customer 
service commitments instead. However, the DOT's Inspector 
General testified here in 2001 and 2006 that airline efforts 
slacked off after the threat of legislation abated and that 
those commitments to customer service plans aren't enforceable.
    The airlines will also say the Tarmac Delay Task Force 
Report and DOT-pending regulations eliminate the need for 
Federal passenger rights provisions to be included in your FAA 
Reauthorization Act legislation. Well, we asked the task force 
to establish minimum standards for passenger health and safety 
issues and for a maximum period for tarmac strandings.
    I even asked that they clearly define what is a long delay 
or what is an excessive delay, and we could not get a 
definition. Instead, the airlines on the task force accepted no 
standards with everything still being left to their unregulated 
discretion and with no penalties for negligence.
    Similarly, in DOT's current draft of its weak, toothless, 
Enhancing Airline Passenger Protections regulation, the 
airlines are permitted to crate their own contingency plans 
with no DOT review for adequacy, no minimum standards, and no 
practical way for passengers to enforce whatever the carriers 
propose to offer.
    The airlines' lobbying and litigation activity over the 
past year make it clear that they don't want any Government 
body or individual passenger to be able to enforce any 
standards of airline behavior during long tarmac delays, and 
not the States. The airlines successfully defeated the State of 
New York's attempt to establish minimum standards for air 
passenger health and welfare, imposing fines for violations. 
The court's ruling was that only the Federal Government may 
regulate the airline in this preempted area. And then they turn 
around and say, not Federal regulation.
    The airlines are opposed to DOT's requiring them in its 
pending rulemaking to list their 1999 commitment and their 
tarmac stranding policies in their contracts of carriage for 
fear that some passengers will try to litigate those promises 
in state courts. Thus, only Congress can assure minimum 
protections for passengers.
    Mr. Chairman, time limits restrict me from explaining how 
we know from our 24/7 hotline calls and investigations into 
airline statistics show that airline and Federal agency 
treatment of stranded airline passengers is getting worse and 
not better. In the audience today is Wayne Burnett. He is a GE 
jet engine engineer. He had a blood clot and pulmonary embolism 
after a three and a half hour stranding event on the tarmac. It 
nearly killed him. His life will never be the same.
    The bottom line here, Mr. Chairman, is that unless Congress 
mandates in your FAA reauthorization legislation minimum 
standards for adequate food, water, working toilets and a 
passenger option to deplane after three plus hours of a tarmac 
delay, if it can be done safely, tomorrow's passengers will 
continue to be as exposed to airline negligence during tarmac 
strandings as they are today.
    Again, thank you for the opportunity to testify. I would be 
pleased to answer your questions.
    Mr. Costello. We thank you for your testimony, and as I 
stated earlier, there is no question that if we leave it up to 
the airlines to regulate themselves, it will not happen, and 
that is why it is necessary for us to put this in legislation 
and to pursue it. So we thank you for your testimony and thank 
you for your advocacy on behalf of passengers.
    Mr. Forrey, we don't want to get into the NATCA contract 
issue. We all know that. We have discussed it. I think everyone 
on this Committee is aware, and I think can say in a bipartisan 
way that we believe that what has taken place is unfair. The 
question is, what is the remedy, and we have proposed the 
remedy in our legislation and we have stressed, I personally 
have stressed it to the new Secretary and others, what needs to 
be done. So I am not going to get into that now.
    But what I do want to get into is to talk a little bit 
about testimony that we heard from both Dr. Dillingham, and we 
have heard from others in the past, about morale and what it is 
doing to the agency, the concern about the morale having an 
effect on NextGen and the lack of involvement in all of the 
stakeholders, including the controllers, Mr. Brantley's people 
that he represents, and Mr. Prater as well.
    We heard in the past Administration testimony here in this 
room about how NATCA in particular has been invited to the 
table to participate. My question to you is, with NextGen in 
particular, because everyone is concerned about NextGen and 
modernizing the ATC system, have you been at the table? And 
have your people, have you been invited to come in, give your 
views, and help try and design the system?
    Mr. Forrey. Mr. Chairman, I am aware of all those comments 
made by the previous Administration and the FAA. They are just 
patently false. The FAA has not invited us to participate in 
any technological improvements or modernization of the system. 
In fact, they don't want our opinion on anything. They view us 
with disrespect, or they have in the past, and continue to do 
so today. I think and hope that that will change with the new 
Administrator and this new Administration. We look forward to 
that.
    A collaboration is the only way this agency is going to 
move forward. It is the only way we are going to be able to 
train people. It is the only way we are going to be able to 
keep the experienced controllers from leaving the system. They 
are just treated terribly.
    Mr. Costello. Well, it was refreshing for me to hear from 
the new Secretary about how he wanted to be inclusive and 
wanted to have the opinions in not only designing NextGen, but 
in other aspects of the operation of the agency, all the 
stakeholders, including specifically PASS, NATCA, ALPA, and the 
flight attendants as well. So hopefully that dialogue will take 
place in the future, once they are organized and get moving. I 
made the point earlier that I think we are into 22 days of this 
Administration, so it is going to take some time to get the 
appropriate people in place.
    At this time, the Chair would recognize the Ranking Member, 
Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    Thank you all for your testimony, and putting in a little 
overtime here in this hearing room today.
    I really wanted to take the short time I have to first of 
all make a comment, and that is, as you know, we have had 
several years without a fatal accident in commercial aviation 
in the United States, an absolutely remarkable record. That 
record was in very great jeopardy quite recently with Flight 
1549, and at least three of you have members who were involved: 
an air traffic controller who helped to alert people around the 
area, of course the flight crew, stewardesses who managed to 
prevent as best they could a potentially catastrophic 
situation, turning into an orderly evacuation, and especially 
your I think member, Captain Sully Sullenberger, and the 
tremendous job he did in acting very quickly, as it turned out, 
under great pressure.
    This is a testimony to the professionalism and 
effectiveness of experienced crews. We keep trying to make the 
system better, but we can all be very proud of the performance 
of the people involved in saving all the lives, even someone 
who was in a wheelchair, with very few serious injuries and 
almost everyone walked away and everyone lived. So it is a 
testimony. I just wanted to say that.
    The other thing, I did have a question for Mr. Forrey, the 
bill, H.R. 915, has what is called a binding arbitration 
provision, but when the arbitrator comes out with an award, as 
I understand it, and I would like you to comment on this, it is 
binding on the taxpayer, but not on the union as there is a 
possibility of a vote to reject the binding arbitration 
agreement. How is that necessarily going to move things 
forward?
    Mr. Forrey. Well, the binding arbitration process is very 
similar to what is used in the Postal Service today. 
Essentially, anything that is determined by the arbitration 
panel is not ratifiable. In other words, it has to be accepted 
by the parties. The rest of the agreement that was agreed to 
voluntarily would be ratified. So anything that was determined 
by the arbitration panel is set in stone.
    I believe there are also circumstances where there 
certainly couldn't be an award or a settlement, so to speak, 
without the government's approval. Obviously, if Congress isn't 
going to fund it, they are not going to fund it, and that is 
all there is to it. I mean, you guys make the laws, right?
    So that is kind of where it goes. It is a very good 
process. It is very productive. It cuts out the strife. 
Everyone gets to have their day in court and present their 
evidence in support of what they want to do. An independent 
panel will determine what makes the best sense.
    So we believe that is the only way to go. It is similar to 
what is done with the Federal services in past panels. It is 
just that they don't deal with funding, basically, or with pay 
in the other Federal parts of the Federal sector, like the FAA 
does.
    So we think it works very well. It has worked very well for 
the Post Office for several years now, and it should create a 
more productive environment.
    Mr. Petri. Thank you very much.
    I wonder, too, just one thing very briefly, if you could 
comment, if you were here during the Inspector General's 
testimony. There seemed to be some, at least certainly an 
increase in recruitment that they have hit their targets or 
exceeded them. There is still concern about inexperience or 
opportunities for proper training, but there were predictions a 
year or so ago about how we were going to have trouble 
recruiting or keeping the air traffic control force, especially 
in the absence of a contract settlement. That does not, in 
fact, seem to have happened. Would you like to address that?
    Mr. Forrey. Well, I think it comes down to a question of 
what you are recruiting, how qualified they are, and how 
successful they will be in the training.
    Mr. Petri. These are your members. I understand that. I 
completely understand that. What we want them to do is be put 
into an environment where they are going to have the best 
opportunities to succeed, and that it not being done.
    Mr. Forrey. You have to understand, air traffic control is 
an inherent ability, not something you learn. If you don't have 
the inherent ability to multi-task, three-dimensional imaging 
and all that kind of stuff that us weirdos have, you probably 
won't succeed in the job.
    So first of all, you have to get the right pool of people 
in there. Certainly, we hope that is what the FAA is doing. We 
don't have any say in that.
    Secondly, you have to provide an environment where they can 
learn their craft and their profession, and they are being 
placed in the facilities that don't have the curricula for 
training them, for people that don't have experience. They are 
putting too many in places at once where they can't get proper 
and on-time training.
    The experience-level of the controllers that are supposed 
to do the training are leaving, so there are fewer of them 
around to show them how to do the job. And as Chairman Costello 
said, he was in Orlando tower the other month, and there were 
ten people in that tower and only one of them had a year or 
more of experience.
    Now, if we had a situation that happened with US Air 1549, 
would that controller have had the experience and been 
subjected to that kind of a condition in his or her working 
environment for less than a year, to be able to handle the 
situation like that controller did, or those controllers did?
    One was in the tower at LaGuardia, Bill McLaughlin, and 
Patrick Harkin in New York TRACON. Both had years of experience 
and they didn't miss a beat, just like the crew didn't miss a 
beat, neither the cabin crew nor the flight crew. People were 
called in to help as quickly as they could, and no one got hurt 
in that thing.
    So that is what we are hoping, to stop the flow of these 
experienced controllers from leaving the system, to provide 
these new folks coming in a decent training program that they 
can be successful and be the next generation of this system. We 
are concerned about that. You can hire all you want, but they 
only certified 700 of them in the last three years. That is a 
problem for us. We lost 5,000 and certified 700. You do the 
math.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman.
    I don't think I have questions. I would like to make a 
couple of comments, if I could.
    Mr. Forrey, in all my years of being around flying, I still 
an impressed when I go to a tower or control room. Pass word 
back to your people that we love them, we respect them, and we 
are going to continue to work our best to get the numbers you 
need.
    I could go right down the line. I could brag on all of you, 
and I do. I think I will pick on the lady in front.
    Unsung heroes. We fly a lot. Thank you. Those flight 
attendants are really great, and they don't get much help from 
we passengers sometimes. We get cranky and so on.
    The mechanics, Mr. Roach, you make a good point. 
Unbelievably costly airplanes, and then we want to shortchange 
the people that keep them flying. It is ridiculous.
    Mr. Gless, thank you.
    Don't give up, Ms. Hanni. We are going to win this sooner 
or later.
    I guess I will stop with you, Captain Prater. I was 
thinking back to the days of my own flying, when I was 
learning. As you know, and the rest of you who fly, we practice 
and practice and practice with that engine out. When I was 
instructing, we wouldn't solo somebody until they could prove 
to us they understood what they are supposed to do.
    Nevertheless, I think that the Hudson River landing tells a 
story to the world, really, that you guys are professional. You 
are really, really professional. Calm and cool, you have to be, 
and people of few words. Just do what you have to do.
    I think of all the possibilities that could have gone 
wrong, one wing being a little low or something, just the wrong 
time, and what could have happened. I think that there was a 
guiding hand possibly, but there was a heck of a hand on the 
yoke. Our compliments to those of you that give us the 
confidence to get in the back of some of those monsters, and 
not being able to see what is going on. That is kind of one of 
the harder things for pilots, to get in the backseat and sit 
there knowing you can't do a darn thing if something goes 
wrong. Then there are the flight attendants to take care of us.
    Mr. Chairman, this is a great panel. I wish the whole 
Country could have heard what they had to say and what they do 
for us. It means a lot.
    Thank you very much.
    Mr. Costello. The Chair thanks you, and recognizes the 
gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I guess I am to a large extent what stands between all of 
us being able to finish this hearing today, but I just want to 
echo my colleague Mr. Boswell's comments here, that we 
unfortunately with all the problems going on in our Country 
right now, we would like to focus on things that don't work and 
haven't worked. All of you are part of making this system work.
    Every time I get on a plane, I still think about the fact 
that all of these things have to work--the pilot, the flight 
attendants, those that work on the plane, air traffic 
controllers--everybody has to do things right so that 
everything works. I also every time I get on a plane think 
about how things can be better. So I thank Ms. Hanni for her 
work.
    I just want to ask one question of Ms. Friend. In your 
written testimony, you express strong support for placing 
limits on the size of a carry-on bag that may be brought onto 
planes. So I just wanted to ask you, with the decision of many 
carriers to charge for bags, I just want to ask you how that 
has impacted the number of bags, the size of bags that 
passengers carry on, and what effects that this had on flight 
attendants.
    Ms. Friend. Well, as you can imagine, people are reluctant 
to pay anything more than they have to. So a lot of the baggage 
that used to be checked is now ending up in the cabin of the 
aircraft, more and larger pieces of luggage. We do know that, 
as I testified earlier, at least one major carrier, two months 
after implementing the checked baggage fee, they revealed that 
the amount of their checked baggage was down by 25 percent. 
From our viewpoint, that 25 percent reduction is now in the 
cabin.
    We see a number of problems with that, obviously. There 
isn't room for it. It causes problems in evacuation. Some of 
those passengers who were in the Hudson River felt compelled to 
try to take their carry-on baggage with them as they were 
leaving, which they will inevitably do.
    We believe that additional carry-on baggage coming through 
the security checkpoints adds an additional burden to the 
screeners. It just magnifies their workload and makes it more 
difficult for them to identify dangerous items.
    So we are once again, as we have for as long as I can 
remember, urging the enactment of a uniform carry-on baggage 
limitation, size and number, that can be enforced.
    Mr. Lipinski. Thank you. They still have those metal things 
that are sitting there before you get on the plane that say 
your bag must fit in here. I kind of wonder why those are still 
sitting there. I don't think I have ever seen one of those 
really used.
    Ms. Friend. They are actually a handy receptacle for 
anything, you know, that you can't find a trash can for. That 
is about what they are good for.
    [Laughter.]
    Mr. Lipinski. Thank you very much. I thank all of the 
panelists for your testimony. Hopefully, there are a lot of 
people watching this and understand the job that you do, the 
people that you represent.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you.
    The Chair thanks all of you for your testimony and for your 
patience today. We think that we have a good bill that we have 
introduced. We have every intention of moving the bill as 
quickly as possible. We will schedule a markup as soon as we 
possibly can, and we will get it to the floor quickly.
    As I said earlier, with the Ranking Member of the Full 
Committee who is here, most of the items in the bill are issues 
that we had previously agreed on. Mr. Mica, Chairman Oberstar 
and Mr. Petri and I went through item by item in the bill. So I 
would guess that about 90 percent is agreed upon. The labor 
issues are not agreed upon, not surprisingly, but there were a 
couple of other issues, too, that were put into this bill that 
we believe are noncontroversial.
    So we fully intend to move this as quickly as possible. We 
want to move it prior to the expiration of the extension, which 
of course is the end of March. So we will be doing our work to 
attempt to get that done.
    We appreciate your input. As I said in my opening 
statement, the bill that was introduced and passed out of the 
Committee in the House in 2007 had input from all of you, and 
from a lot of other stakeholders as well. This bill does as 
well, and we appreciate your testimony, your input, and we look 
forward to having you back before the Subcommittee in the 
future to talk about other issues.
    We would encourage you to talk to our colleagues in the 
House and the other body as we move the bill forward, so that 
we can get the bill passed out of the House and then you can go 
over to the other side of the building and work hard to try and 
convince our friends in the other body to pass a 
reauthorization bill.
    It is important. It is not only important for NextGen. It 
is not only important for a lot of the reasons that you heard 
today, but I think it is important to the flying public and all 
of the stakeholders involved in aviation.
    So again, we thank you for your patience and we thank you 
for your testimony.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 6:48 p.m. the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    

</pre></body></html>
